<html>
<title> - ROYALTY ON SODA ASH; AMEND THE NATIONAL GEOLOGIC MAPPING ACT; GRANTS PROVIDED TO PACIFIC ISLAND TERRITORIES; AND VOTING RIGHTS OF THE ARMED FORCES</title>
<body><pre>[Senate Hearing 108-702]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-702

 ROYALTY ON SODA ASH; AMEND THE NATIONAL GEOLOGIC MAPPING ACT; GRANTS 
PROVIDED TO PACIFIC ISLAND TERRITORIES; AND VOTING RIGHTS OF THE ARMED 
                                 FORCES

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on


                           S. 2317                               S. 2353

                           H.R. 1189                             H.R. 2010



                               __________

                             JULY 14, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-970                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                        Kellie Donnelly, Counsel
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     9
Bunning, Hon. Jim, U.S. Senator From Kentucky....................     2
Burd, Michael K., Vice President, United Steelworkers of America 
  Local 13214, FMC Wyoming Alkali Plant, Green River, WY.........    24
Cobb, James C., Ph.D., State Geologist and Director, Kentucky 
  Geological Survey, University of Kentucky Geological Survey, 
  Lexington, KY..................................................    19
Cohen, David B., Deputy Assistant Secretary for Insular Affairs, 
  Department of the Interior.....................................     6
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Faleomavaega, Hon. Eni F.H., U.S. Delegate From American Samoa...     2
Leahy, P. Patrick, Associate Director for Geology, U.S. 
  Geological Survey, Department of the Interior..................    10
Loomis, Marion, Executive Director, Wyoming Mining Association...    31
Marvinney, Robert G., Ph.D., President, American Association of 
  State Geologists, Director and State Geologist, Maine 
  Geological Survey..............................................    15
McDermid, John F., Counsel, American Natural Soda Ash Corporation    26
Thomas, Hon. Craig, U.S. Senator From Wyoming....................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    43

 
                    ROYALTY ON SODA ASH; AMEND THE 
   NATIONAL GEOLOGIC MAPPING ACT; GRANTS PROVIDED TO PACIFIC ISLAND 
           TERRITORIES; AND VOTING RIGHTS OF THE ARMED FORCES

                              ----------                              


                        WEDNESDAY, JULY 14, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The Subcommittee on Public Lands and Forests 
will convene. This legislative hearing is on S. 2317, S. 2353, 
H.R. 1189, and H.R. 2010. So good afternoon, everyone. I want 
to thank you all for coming to our hearing today.
    Today we will have two representatives from the Department 
of the Interior. I want to welcome Mr. David Cohen, who is the 
Deputy Assistant Director for Insular Affairs, and Patrick 
Leahy, Associate Director for Geology from the USGS. I also 
want to thank our witnesses for taking the time to come to 
Washington to testify. I know you have traveled a long way and 
it will help you--it certainly will help us better understand 
the need for this legislation.
    We will be hearing testimony on the following four bills, 
as I had mentioned: S. 2317 was introduced by Senator Thomas--
Senator Thomas is here with us as a member of this committee--
to reduce Federal royalty on soda ash for 5 years. That is S. 
2317. S. 2353 is a bill to reauthorize the National Geologic 
Mapping Act for another 5 years. H.R. 1189 is a bill to 
increase the waiver requirement for local funding matching 
funds for grants provided to the U.S. territories of American 
Samoa, Guam, the Virgin Islands, and the Northern Mariana 
Islands; and H.R. 2010, a bill to provide for the election of 
the American Samoa delegate to the U.S. House of 
Representatives by plurality vote and for other purposes. The 
subcommittee has received a statement from the American Samoa 
delegate, who wished he could be here today, but timing has not 
allowed that, on these two island bills.
    I also have a statement from the Idaho State geologist on 
S. 2353. They will all become a part of the record.
    [The prepared statements of Senator Bunning and Mr. 
Faleomavaega follow:]

         Prepared Statement of Hon. Jim Bunning, U.S. Senator 
                       From Kentucky, on S. 2353

    Thank you, Mr. Chairman. I am pleased the Energy Committee will be 
hearing testimony today on a bill reauthorizing and amending the 
National Geologic Mapping Act of 1992. As an original co-sponsor of the 
bill, I would like to thank Senator Craig for introducing this 
important legislation.
    Kentucky is a leader in geological maps and is at the forefront of 
geologic mapping techniques. I have seen firsthand the successes of 
this program through the Kentucky Geological Survey Office, led by Jim 
Cobb, who will testify before us today.
    This cooperative Federal-State program has provided significant 
benefits to Kentucky. While mapping in Kentucky is built on our long 
tradition of coal mining, these maps now aid many new initiatives, from 
water supply planning to economic development.
    Establishing a thorough and precise catalog of the lay of the land 
in the Commonwealth has opened a world of development opportunities.
    This act has provided the Federal funds, leveraged by State money, 
to create and catalog our terrain.
    I would like to thank the witnesses for their testimony on the 
bills before the committee today. Thank you, Mr. Chairman.
                                 ______
                                 
           Prepared Statement of Hon. Eni F.H. Faleomavaega, 
                   U.S. Delegate From American Samoa

                              ON H.R. 1189

    Dear Mr. Chairman, Vice Chairman, and Ranking Member, thank you for 
holding a hearing on H.R. 1189, a bill to increase the waiver 
requirement for certain local matching requirements for grants provided 
to American Samoa, Guam, the Virgin Islands, or the Commonwealth of the 
Northern Mariana Islands.
    As you know, the U.S. House of Representatives unanimously passed 
H.R. 1189 on November 18, 2003 and Congress first enacted a matching 
waiver requirement for the territories in 1980, recognizing the 
difficulty of territorial governments to access federal grant moneys.
    At that time, the waiver was set at $100,000 for American Samoa and 
CNMI. Later in 1983 and 1984, the law was amended to increase the 
requirement to $200,000 and simultaneously added the territories of 
Guam and Virgin Islands for eligibility. It has now been twenty years 
since this law has been revisited and the current waiver of $200,000 
has proven to be inadequate to meet the needs of the insular areas.
    Our territorial governments continue to be challenged with rising 
unemployment, decreased government revenues, and impediments to 
attracting new capital for diversification. The insular areas simply do 
not have the financial resources to meet the matching fund requirements 
required by federal law. Consequently, we are often unable to apply for 
the federal grants that we need to address critical issues like health, 
education and economic development. H.R. 1189 would alleviate these 
difficulties by increasing the waiver requirement to $500,000.
    H.R. 1189 would also direct the Secretary of the Interior to 
complete and submit to the House Committee on Resources and the Senate 
Committee on Energy and Natural Resources the results of a study of the 
implementation of the changes to the matching requirement made through 
this legislation. While it is clear that more comprehensive legislation 
is needed to bring about sustainable economic growth and relief for the 
insular areas, I believe this legislation will alleviate some of the 
economic difficulties we have been facing.
    At this time, I would like to thank my colleague from Guam, the 
Honorable Madeleine Bordallo, for co-sponsoring this important 
legislation. I also truly appreciate the support of Chairman Richard 
Pombo and Ranking Member Nick Rahall of the House Committee on 
Resources for recognizing the importance of this issue. Again, I thank 
you for holding this hearing and I urge successful passage of H.R. 
1189.

                              ON H.R. 2010

    Mr. Chairman, Vice Chairman, Ranking Member, thank you for holding 
this hearing on H.R. 2010, a bill I introduced to protect the voting 
rights of active duty service members and overseas voters whose home of 
residence is American Samoa. I regret that I am unable to accept your 
invitation to testify at today's hearing due to an important event 
taking place in my district.
    As you may know, the traditional chiefs and leaders of Manu'a ceded 
their islands to the United States 100 years ago and the people of 
American Samoa are joining together to celebrate this historical 
relationship on July 14, 2004. Equally important is today's hearing on 
H.R. 2010 and I thank you for entering the full text of my statement 
into the record.
    H.R. 2010 is a bipartisan bill which is supported by Chairman 
Richard Pombo and Ranking Member Nick Rahall of the House Committee on 
Resources. On May 5, 2004, the House Committee on Resources passed this 
bill by unanimous consent. On June 14, 2004, the House passed H.R. 2010 
without objection.
    I am pleased that the Senate is now considering H.R. 2010 and I 
would like to note for the record that on October 29, 2003 the House 
Committee on Resources held a hearing on this bill. On behalf of the 
U.S. Department of the Interior, the Assistant Secretary for Insular 
Affairs was invited to testify but declined citing that this was a 
local issue.
    Locally, H.R. 2010 is supported by the Governor of American Samoa, 
the President of the Senate, the Speaker of the House, and 85% of those 
surveyed in American Samoa agree that overseas voters and active duty 
service members should have the right to vote in federal elections held 
in the Territory.
    Since the Assistant Secretary has now accepted an invitation to 
testify before the Senate Energy and Natural Resources Subcommittee on 
Public Lands and Forests, he has given me his word that the Department 
of the Interior will not raise objections to H.R. 2010. I would also 
like to note that I have kept the Department of the Interior fully 
informed of all matters pertaining to this legislation.
    For the past six years, this matter has also been before the people 
and the local leaders of American Samoa. Since 1998, I have written to 
our Governors, past and present. I have written and testified before 
our local Legislature, or Fono, and copies of my testimony, my letters, 
and local responses have been made part of the House Committee records. 
I would like to ask that these addendums and the full text of my 
remarks be included in the Senate records.
    In short, American Samoa's overseas voters and military men and 
women have been disenfranchised from the political process and have 
been denied the right to vote in federal elections held in the 
Territory. In part, this has been due to two complications. One, 
American Samoa law has required overseas and uniformed voters to 
register to vote in person and this has been contrary to the Uniformed 
and Overseas Citizens Voting Act of 1975.
    While I am pleased that our Legislature is working to address the 
local registration process, our uniformed and overseas voters have also 
been denied the right to vote as a result of Public Law 95-556 passed 
on October 31, 1978. Federal, or P.L. 95-556, provides for the 
Territory of American Samoa to be represented by a nonvoting Delegate 
to the United States House of Representatives and mandates that if no 
candidate receives a majority of the votes cast, on the fourteenth day 
following such election, a runoff election shall be held between the 
candidates receiving the highest and second highest number of votes 
cast.
    Like the Governor of American Samoa, the Honorable Togiola T.A. 
Tulafono, I believe this 1978 federal law requiring a runoff election 
to be held only 14 days after the general election creates, as Governor 
Togiola says, ``a situation where it is virtually impossible for 
American Samoa's Election Office to send out absentee ballots to the 
men and women in the military and expect to receive them back in time 
for those votes to be counted in a run-off election.'' Given that our 
mail is delayed and our air service is limited to two flights a week, 
Governor Togiola and I agree that some measure should be put in place 
to assure that the votes of our military men and women are counted and 
that this injustice is corrected.
    During the 107th Congress, I introduced H.R. 3576, a bill to 
establish primary elections and which made sure that American Samoa's 
Delegate was elected by a majority of the votes cast. When introducing 
this bill, I pointed out that both Guam and the Virgin Islands were 
once bound by the two week federal runoff requirement but established 
primary elections to resolve similar problems of sending out and 
receiving back absentee ballots in time for those votes to be counted. 
Although I suggested that American Samoa could benefit from modeling 
its federal election procedures after Guam and the U.S. Virgin Islands, 
the American Samoa Government (ASG) chose not to support this bill and 
cited as its reason that primary elections were too costly.
    Given ASG's financial difficulties and out of respect for its 
concerns, I introduced H.R. 4838 which called for voting by plurality 
in lieu of primary elections. As I explained when introducing H.R. 
4838, 49 of the 50 states use plurality voting to elect their 
Representatives to Congress. The counties of Tualauta and Itu'au in 
American Samoa also elect their representatives by plurality vote. 
Plurality voting minimizes costs to the local government and also 
provides active duty service members and other overseas voters an 
opportunity to participate fully in the federal election process. 
Despite these benefits, ASG also chose not to support this bill. This 
time, the former and late Governor Tauese P.F. Sunia stated that he 
believed ``the intent of Congress when they established majority vote 
was to ensure a strong mandate for American Samoa's Delegate.''
    To be clear about this, I would like to provide this Committee with 
a legal history of how election law was determined for American Samoa. 
In 1951, President Harry S Truman issued Executive Order 10264 which 
transferred administrative responsibility for the islands of American 
Samoa from the Secretary of the Navy to the U.S. Secretary of the 
Interior. The Secretary of the Interior, in turn, appointed our 
Governors.
    In 1960, the people of American Samoa adopted a Constitution. The 
Constitution was revised in 1966 and was approved by the Secretary of 
the Interior on June 2, 1967. In 1967, the Revised Constitution of 
American Samoa provided for an elected Legislature, or Fono, consisting 
of a Senate and a House of Representatives. However, it did not provide 
our people with the right to elect our own Governor and Lieutenant 
Governor and, at the time, American Samoa was the only remaining off-
shore area of the United States which did not have a popularly elected 
Governor and Lieutenant Governor.
    On June 10, 1976, Congressman Phil Burton, Chairman of the House 
Subcommittee on Interior and Insular Affairs, took notice of American 
Samoa's situation and introduced a bill to make it possible for our 
Governor and Lieutenant Governor to be popularly elected rather than 
appointed by the Secretary of the Interior. As staff counsel to the 
Committee on Interior and Insular Affairs, Congressman Burton 
instructed me to draft this legislation which the U.S. House of 
Representatives overwhelmingly passed by a landslide vote of 377 to 1.
    Instead of sending his bill to the Senate, Chairman Burton decided 
to consult further with the Secretary of the Interior, Rogers C.B. 
Morton, about American Samoa's unique political status as an 
unincorporated and unorganized territory which was and is unlike the 
organized territories of Guam and the Virgin Islands. As a result of 
their consultations, the two agreed that Secretary Morton would issue a 
Secretarial Order (No. 3009) authorizing the American Samoa Government 
to pass enabling legislation to provide for an elected Governor and the 
Lieutenant Governor.
    Secretary's Order No. 3009 amended American Samoa's Constitution to 
specifically provide for an elected rather than an appointed Governor 
and Lieutenant Governor. Secretary's Order 3009 was also in keeping 
with the will of the majority of voters in American Samoa who voted in 
favor of electing their own Governor and Lieutenant Governor in a 
plebiscite that was held on August 31, 1976.
    Furthermore, Chairman Phil Burton introduced legislation on August 
2, 1978 to provide that the Territory of American Samoa be represented 
by a nonvoting Delegate to the U.S. House of Representatives. I was 
also tasked with drafting this legislation which became Public Law 95-
556 and was made effective October 31, 1978.
    I can assure you that in the case of the Delegate, American Samoa's 
federal election laws were patterned after those of the Virgin Islands 
and Guam. At the time, consideration was not given to whether or not 
majority or plurality voting should be established for American Samoa. 
Congress simply enacted legislation to provide American Samoa with 
representation in the U.S. Congress. We could not foresee some 25 years 
ago that American Samoa's men and women would serve in record numbers 
in the U.S. Armed Forces making it nearly impossible (given American 
Samoa's limited air and mail service) for active duty service members 
to participate in runoff elections held two weeks after general 
elections.
    Today, we are keenly aware that this requirement to hold a runoff 
election 14 days after the general election is wrong. To right this 
wrong and after further consultations with our local leaders, I 
introduced H.R. 2010 which includes the suggestions of Governor 
Togiola. In a letter dated September 11, 2003, Governor Togiola 
informed me that he had reviewed the copy of H.R. 2010 that I sent to 
him and that he was satisfied that this bill will provide an immediate 
solution to address the concerns we have regarding the voting rights of 
our men and women in the military services. In a letter dated September 
15, 2003, I thanked Governor Togiola for his support.
    Although we have had some differences regarding this issue, 
Governor Togiola and I have always agreed that our military men and 
women should have the right to vote especially when they contribute 
almost a million dollars per year in taxes to our local government. I 
am pleased that Governor Togiola is now happy with this bill and I 
again commend him for supporting its passage in the House.
    I also want to thank the President of the American Samoa Senate, 
the Honorable Lutu Tenari S. Fuimaono, for his support. In a letter 
dated October 28, 2003, President Fuimaono stated that he fully 
supports H.R. 2010.
    Finally, I would like to say that H.R. 2010 is an historic bill. It 
is a bill that immediately restores the voting rights of our overseas 
voters and active duty military members. It is also a bill that makes 
clear in no uncertain terms that the American Samoa Legislature is 
vested with the authority it needs to establish primary elections for 
the office of the Delegate, if it so chooses.
    H.R. 2010 also protects American Samoa's future in the U.S. 
Congress. Without H.R. 2010, future Delegates could miss out on key 
committee assignments as a result of delayed outcomes and run-off 
elections. Like Governor Togiola, I do not believe American Samoa's 
future should be weakened or disadvantaged and this is one more reason 
I appreciate his support of H.R. 2010.
    Given the importance and urgency of this bill, I thank the members 
of the House Resources Committee, both Democrats and Republicans, who 
unanimously voted in favor of this bill. H.R. 2010 is the right thing 
to do and, as a Vietnam veteran, I will not rest until we fully 
guarantee that our active duty service members have the right to vote 
in federal elections held in American Samoa.
    To alleviate any concerns that I will personally benefit from this 
legislation, I offered an amendment in the nature of a substitute for 
purposes of changing the effective date of this bill from January 2004 
to January 2006. This amendment was unanimously supported at mark-up by 
the House Resources Committee and, as such, any change in law will not 
go into effect until the 2006 election cycle.
    As I have repeatedly stated, H.R. 2010 in no way affects how the 
American Samoa Government chooses to elect its local leaders and, 
having made every change requested of me by our local leaders and after 
years of good-faith efforts on my part, I believe the time has come to 
do right by our overseas voters and men and women in the military. Our 
sons and daughters have fought and died to preserve our freedoms and I 
will do everything I can to protect their right to vote.
    Again, Mr. Chairman, Vice Chairman, and Ranking Member of the 
Senate Energy Subcommittee on Public Lands and Forests, I thank you for 
holding this historic hearing on H.R. 2010 and I respectfully ask that 
you support its successful passage. Most of all, I thank the men and 
women from American Samoa who are serving on active duty at a time when 
our nation is at war. I wish our active duty service members the very 
best and I pray for their safe return.

    Senator Craig. I have decided to forego an opening 
statement so that we can hear directly from the witnesses, any 
further than I want to make at this time. There is a briefing 
at 3 o'clock that we would hope we can move through this, that 
will allow us to attend.
    With that, let me turn to my colleague Craig Thomas for any 
opening statement he would like to make.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I will not take the time either. I do want to join you, 
however, in welcoming the witnesses that we have here today. 
There are several interesting bills here, and I particularly 
want to welcome those who have come to comment on the bill that 
we have in Wyoming. We have three witnesses that have come from 
Wyoming and I want to welcome them particularly. Otherwise, I 
am ready to get on with it, sir.
    Senator Craig. Very good.
    Our first panel is made up, as I have mentioned, of David 
Cohen, Deputy Assistant Director for Insular Affairs, 
Department of the Interior, and Patrick Leahy, Associate 
Director for Geology, U.S. Geological Survey, Department of the 
Interior. David, we will start with you.

         STATEMENT OF DAVID B. COHEN, DEPUTY ASSISTANT 
   SECRETARY FOR INSULAR AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Cohen. Thank you. Mr. Chairman and members of the 
committee, I am David Cohen, Deputy Assistant Secretary of the 
Interior. I am pleased to appear before you today to discuss 
H.R. 2010, the American Samoa delegate election bill, and H.R. 
1189, the matching fund waiver bill.
    First on H.R. 2010. Current law provides that the delegate 
to the House of Representatives from American Samoa shall be 
elected by majority vote. Under current practice, a runoff is 
conducted 2 weeks after the general election in November if no 
candidate receives a majority. The result is that members of 
the armed forces and other voters overseas may be 
disenfranchised in the runoff election due to transportation 
and communication difficulties that delay the return of runoff 
ballots in time for counting.
    H.R. 2010 provides one method for attempting to ensure that 
the votes from overseas are counted. In the first instance, 
H.R. 2010 would substitute a plurality of votes for election of 
delegate for the currently required majority. If, however, the 
members of the Fono believe that a majority vote is preferable, 
H.R. 2010 would authorize the Fono to establish a primary 
election.
    We note that the citizens of the various States are given 
the latitude to establish, through their elected 
representatives, the policies that govern elections. We 
recognize that in the special case of American Samoa this is a 
matter for Congress to decide. The wishes of the people of 
American Samoa, however, should be given the same deference 
that the wishes of the citizens of a State would be given under 
analogous circumstances.
    We respectfully suggest, therefore, that the Congress note 
the positions of recognized leaders of the territory in order 
to discern the preferences of the people. If the Congress finds 
that this bill is a reasonable reflection of the wishes of the 
people of American Samoa, the administration would have no 
objection to its enactment.
    To the extent that deficiencies in the current system may 
result in the disenfranchisement of absentee voters, including 
men and women in our armed forces, we would urge Congress to 
correct any such deficiencies as soon as possible.
    Now on H.R. 1189, the matching funds waiver, the law 
originally provided for a permissive waiver of matching fund 
requirements at the discretion of the Department or agency. The 
law was amended in 1980 to provide a mandatory waiver of any 
matching funds under $100,000 applicable to American Samoa, 
Guam, the Virgin Islands, or the Northern Mariana Islands. The 
$100,000 waiver figure was later raised to $200,000. The 1980 
amendment provided for a mandatory waiver of all matching 
requirements relating to grants by the Department of the 
Interior to a territory.
    The intent of the sponsors of H.R. 1189 was both to clarify 
the waiver provision and to increase the amount of the waiver 
for each grant from a maximum of $200,000 to $500,000. The 
Department of the Interior supports H.R. 1189 if it is amended 
to reflect the following recommendations to improve and further 
simplify the statute:
    First, we recommend that the mandatory waiver apply to 
formula grants but not to discretionary grants. The waiver 
makes sense for formula grants. Discretionary grants are 
another matter. By definition, a Department or agency need not 
give discretionary funds to a territory or a State. If the 
waiver is mandatory with respect to a discretionary grant, that 
fact alone may tip the decision of an administrator against a 
grant to a territory. In the end, the territories could lose 
more discretionary grant dollars than the dollars saved via a 
mandatory territorial waiver provision.
    In the case of the Office of Insular Affairs, our grants 
are specifically tailored to each territory's needs. Any 
matching requirement in an Office of Insular Affairs grant is 
specifically designed with the territory or territories in 
mind. We may be trying to spread limited funds to all the 
territories rather than just one or two, or we may believe that 
we need evidence of a territory's true commitment to the 
purpose of a grant.
    The Department of the Interior, therefore, supports the 
application of the $500,000 waiver of matching funds in a 
mandatory fashion to formula grants, but not to discretionary 
grants.
    A second concern involves subsection (b) of section 1 of 
H.R. 1189. Subsection (b) would aid clarification of the 
statute by deleting most of the material added by three 
amendments. Left in effect would be a clause that singles out 
the Department of the Interior for waiver of all matching 
funds, not just those under $500,000. Consistent with the views 
I expressed earlier, the administration urges that this clause 
be repealed.
    Our last concern is with section 2 of H.R. 1189, which 
calls for a study of the implementation of the new waiver 
provisions contained in the bill. Such a study would likely 
yield little information of value. The administration therefore 
recommends that the study provision be stricken from the bill.
    That concludes my statement. I would be happy to respond to 
any questions.
    [The prepared statement of Mr. Cohen follows:]

 Prepared Statement of David B. Cohen, Deputy Assistant Secretary for 
              Insular Affairs, Department of the Interior

    Mr. Chairman and Members of the Committee, I am David Cohen, Deputy 
Assistant Secretary of the Interior for Insular Affairs. I am pleased 
to appear before you today to discuss H.R. 2010, the American Samoa 
Delegate plurality vote, and H.R. 1189, the matching funds waiver bill.

           H.R. 2010--AMERICAN SAMOA DELEGATE PLURALITY VOTE

    Current law provides that the Delegate to the House of 
Representatives from American Samoa shall be elected by majority vote. 
Under current practice, a runoff is conducted two weeks after the 
general election in November of each even numbered year if no candidate 
for Delegate receives a majority in the general election. The result is 
that members of the armed services and other voters overseas may be 
disenfranchised in the runoff election due to transportation and 
communication difficulties that delay the return of runoff ballots in 
time for counting.
    H.R. 2010 would establish a flexible system for ensuring that the 
votes of American Samoans, who are overseas, are counted. In the first 
instance, H.R. 2010 would substitute a plurality of votes for election 
of Delegate for the currently required majority. If, however, the 
members of the American Samoa Fono, or legislature, believe that a 
majority vote is preferable, H.R. 2010 would authorize the Fono to 
establish a primary election prior to the November balloting.
    The issues raised in this bill are clearly within Congress's 
authority to determine, given American Samoa's special status as a U.S. 
territory. However, we note that, subject to certain limitations, the 
citizens of the various states are generally given the latitude to 
establish, through their elected representatives, the policies that 
govern elections for Federal officials who will represent the people of 
those states.
    We recognize that in the special case of American Samoa, this is a 
matter for Congress to decide. The wishes of the people of American 
Samoa, however, should be given the same deference that the wishes of 
the citizens of a state would be given under analogous circumstances. 
We respectfully suggest, therefore, that the Congress note the 
positions of recognized leaders of the territory, in order to discern 
the preferences of the people of the American Samoa. If the Congress 
finds that this bill is a reasonable reflection of the wishes of the 
people of American Samoa, the Administration would have no objection to 
its enactment. We would like to stress, however, that to the extent 
that deficiencies in the current system may result in the 
disenfranchisement of absentee voters, including the many men and women 
from American Samoa who serve honorably in our armed forces, we would 
urge Congress to correct any such deficiencies as soon as possible.

                    H.R. 1189--MATCHING FUNDS WAIVER

    Section 501 of Public Law 95-134 was originally enacted to allow 
the consolidation of Federal programs within a single department or 
agency into a single grant for a territory. The law also provided for a 
permissive waiver of matching fund requirements at the discretion of 
the department or agency. The law was amended in 1980 to provide a 
mandatory waiver of ``any matching funds under $100,000 (including in-
kind contributions) required by law to be provided by American Samoa, 
Guam, the Virgin Islands, or the Northern Mariana Islands.'' The 
$100,000 waiver figure was later raised to $200,000. The 1980 amendment 
also provided for a mandatory waiver of all matching requirements 
relating to grants by the Department of the Interior to a territory.
    Over the years, section 501 and its amendments have been the 
subject of confusion and various interpretations from department to 
department. The intent of the sponsors of H.R. 1189 was both to clarify 
the waiver provision and to increase the amount of the waiver for each 
grant from a maximum of $200,000 to $500,000. In addition, the bill 
would no longer limit the matching waiver to matching that was required 
``by law.'' Administratively imposed matching would also be waived.
    The Administration supports 1189 if it is amended to reflect the 
following recommendations to improve and further simplify the statute.
    First, we recommend that the mandatory waiver apply to formula 
grants, but not to discretionary grants. Formula grants apply across 
the board to all fifty states and often to the U.S. territories. They 
are tailored for use by states with conditions and limitations imposed 
with the states in mind. Territories are often included as an 
afterthought. Even the smallest and poorest state has many more 
resources at its disposal for dealing with grants than do the 
territories. The waiver, therefore, makes sense for formula grants.
    Discretionary grants are another matter. By definition, a 
department or agency need not give discretionary funds to a territory 
or a state. The matching requirement helps to ensure that the grant 
objective is a priority for the territory seeking the grant. 
Additionally, the matching requirement makes Federal dollars available 
for use by the maximum number of recipients. If the waiver is mandatory 
with respect to a discretionary grant, that fact alone may tip a 
decision of an administrator against a grant to a territory. In the 
end, the territories could lose more discretionary grant dollars than 
the dollars saved via a mandatory territorial waiver provision.
    In the case of the Office of Insular Affairs (OIA), our grants are 
specifically tailored to each territory's needs. Any matching 
requirement in an OIA grant is specifically designed with the 
territory, or territories, in mind. We may be trying to spread limited 
funds to all the territories rather than just one or two. Or, we may 
believe that we need evidence of a territory's true commitment to the 
purpose of a grant in order to determine that the grant funds will not 
be better spent for another purpose or in another territory.
    The Administration, therefore, supports the application of the 
$500,000 waiver of matching funds in mandatory fashion to formula 
grants, but not to discretionary grants. Each grant-giving agency 
should have the flexibility to make its own determination of whether or 
not to waive matching fund requirements for discretionary grants. The 
logic in favor of providing waivers for formula grant matching fund 
requirements is that those matching formulas do not take the unique 
circumstances of the territories into account. This logic emphatically 
does not apply to grants issued by OIA, which are designed with the 
special needs of the territories specifically in mind.
    A second concern involves subsection (b) of section 1 of H.R. 1189. 
Subsection (b) would aid clarification of the statute by deleting most 
of the material added by three amendments to the original statute 
(section 501). Left in effect would be a clause that singles out the 
Department of the Interior for waiver of all matching funds, not just 
those under $500,000. Consistent with the views I expressed earlier, 
the Administration urges that this clause be repealed.
    Our last concern is with section 2 of H.R. 1189, which calls for a 
study of the implementation of the new waiver provisions contained in 
the bill. Such a study would likely yield little information of value. 
The Administration, therefore, recommends that the study provision be 
stricken from the bill. If a problem should arise with regard to the 
newly enacted provisions, I expect that it would be brought to our 
attention so that remedial action can be taken.

    Senator Craig. Thank you, David, very much.
    Before we turn to you, Mr. Leahy, let me recognize our 
colleague from Hawaii, Senator Akaka, for any opening statement 
he would like to make.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I thank 
you for this opportunity. I want to thank you in particular for 
your willingness to include these two bills on the agenda and 
the opportunity to consider them before the session ends.
    The first territory bill, H.R. 1189, would increase the 
waiver, as was mentioned, that the territorial governments have 
from paying local matching requirements on Federal grants. The 
second, H.R. 2010, would provide for the election of the 
delegate from American Samoa by a plurality vote or, if enacted 
by local law, a majority vote held after a primary election.
    Both of these bills were introduced by my good friend 
Congressman Eni Faleomavaega, the senior delegate in the House, 
and both bills have passed the House. Unfortunately, Mr. 
Chairman, the delegate could not testify himself at today's 
hearing because this Friday July 16 is the centennial 
anniversary of the cession of Manoa Islands of American Samoa 
to the United States. The delegate has joined the traditional 
chiefs and leaders of American Samoa in Manoa and we send them 
our best wishes as they celebrate 100 years since the Stars and 
Stripes was first raised above the islands.
    In addition to these territories bills, the subcommittee 
will hear testimony on S. 2353, a bill to reauthorize and amend 
the National Geologic Mapping Act of 1992, and on S. 2317, a 
bill relating to the royalty rate for soda ash. The National 
Cooperative Geologic Mapping Program has been an extremely 
successful partnership between the States and the U.S. 
Geological Survey. The program was first authorized in 1992. S. 
2353 would provide for its continuation.
    S. 2317 would reduce the royalties imposed on soda ash 
produced from Federal lands. I understand that this bill is of 
particular importance to Wyoming.
    I welcome all of our witnesses and look forward to hearing 
from them this afternoon.
    Mr. Chairman, I know you are looking at the time and I want 
to tell you that I have questions, but I would be willing to 
submit it to the record. Thank you.
    Senator Craig. Well, Senator, thank you very much. We 
appreciate that opening statement and your involvement in these 
issues.
    Now let me turn to Patrick Leahy, Associate Director for 
Geology, U.S. Geological Survey, Department of the Interior. 
Welcome before the committee.

STATEMENT OF P. PATRICK LEAHY, ASSOCIATE DIRECTOR FOR GEOLOGY, 
       U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Leahy. Thank you, Mr. Chairman. I am pleased to be here 
today to express the administration's support for S. 2353, a 
bill that would reauthorize the National Geological Map of 
1992. Throughout the USGS's 125-year history, geologic mapping 
has been one of our core capabilities. For State geologic 
surveys, some founded even earlier than the USGS, geologic 
mapping has been an integral part of their history as well.
    A map is the best and most understandable way of portraying 
a great variety of geologic information. The diversity of 
information depicted on geologic maps includes distribution of 
mineral, energy, and groundwater resources, active faults whose 
movements may cause devastating earthquakes, and the 
distribution of surficial deposits that form the substrate for 
wetlands and other ecologically diverse settings.
    Equally important, as my statement notes, such mapping has 
yielded dividends that far exceed the original goals and costs 
of producing the map. When the 102nd Congress passed the 
National Geologic Mapping Act, it recognized that the U.S. 
Geological Survey and the State surveys needed a coordinated 
program to prioritize the geologic mapping requirements of the 
Nation and to increase the production of geologic maps. 
Geologic maps has always been and continues to be a labor-
intensive research endeavor that involves field work to collect 
information, laboratory work to better understand the 
composition, properties, and age of materials, and the use of 
remote sensing to better extrapolate what has been learned in 
one location to other locations.
    I can confidently tell you today that the National 
Cooperative Geologic Mapping program has been extremely 
effective over the past 12 years doing exactly what it was 
designed to do, that is increase the number of geologic maps 
for the Nation. During the 12 years since the passage of the 
act, the USGS and the State surveys have produced well over 
7,500 new geologic maps. In 1993, the first year after the 
initial passage of the act, 34 State geologic surveys and the 
USGS participated in the program. In 2004 the number of State 
surveys participating has grown to 47. In the first year of the 
act, $1.2 million was distributed to the state surveys. Since 
2001 over $6.5 million per year in Federal funds have been 
matched annually by state dollars.
    Cumulatively, over the 12 years of the program 
approximately $50 million has been distributed to 48 States and 
these Federal dollars were matched by $50 million in State 
dollars.
    In 1995 the education component of the program, so-called 
``EDMAP,'' was implemented to train the next generation of 
geologic mappers. To date over 550 university students from 
more than 120 universities across the Nation have benefited 
from these grants.
    Currently the USGS is in close coordination and agreement 
with the Association of American State Geologists on the 
reauthorization, on this reauthorization bill, and associated 
mapping issues. During the past year we have met to discuss the 
act and we feel that the National Geologic Map continues to 
serve the Nation very well and needs little revision.
    Mr. Chairman, in concluding my remarks I would like to 
state that the National Geologic Mapping Act of 1992 and its 
subsequent reauthorizations have been instrumental in helping 
focus the attention on the Nation's need for a new generation 
of high quality geologic maps.
    Thank you, Mr. Chairman, for the opportunity to express the 
views of the administration on this bill and I would be happy 
to respond to any questions you may have.
    [The prepared statement of Mr. Leahy follows:]
Prepared Statement of P. Patrick Leahy, Associate Director for Geology, 
     U.S. Geological Survey, Department of the Interior, on S. 2353
    Mr. Chairman, I am pleased to be here today to express the 
Administration's views on S. 2353, a bill that would reauthorize the 
National Geologic. Mapping Act of 1992. The Administration supports the 
reauthorization, but is concerned that the funding level authorized is 
not consistent with current appropriations or the President's 2005 
budget request. Any additional funding for the National Cooperative 
Geologic Mapping program will have to compete with other priorities.
    This year marks a significant milestone in the history of the U.S. 
Geological Survey (USGS). On March 3, 2004, we celebrated the 125th 
anniversary of the creation of the USGS by the Organic Act enacted by 
the 45th Congress. In this anniversary year, we will celebrate the 
traditions that have shaped us and the mission that has guided us. We 
will celebrate the science that has impacted every facet of our work 
and the people who have made that science great. Finally, we celebrate 
the pivotal technology that will lead us into the future.
    Throughout USGS history, geologic mapping has been one of our core 
capabilities. For state geological surveys, some founded even earlier 
than the USGS, geologic mapping has been an integral part of their 
history as well. A map is the best and most understandable way of 
portraying a great variety of geologic information. The diversity of 
information produced by a geological map includes: the distribution of 
mineral, energy and ground water resources; presently active faults 
whose movements may cause devastating earthquakes; and the distribution 
of surficial deposits that form the substrate for wetlands and other 
ecologically diverse settings. Equally important, as my statement 
notes, such mapping has yielded dividends far beyond its original 
intended goals.
    When the 102nd Congress passed the National Geologic Mapping Act, 
it recognized that the USGS and the State geological surveys needed a 
coordinated program to prioritize the geologic mapping requirements of 
the Nation, and to increase the production of geologic maps. Geologic 
mapping has always been, and continues to be, a labor intensive 
exercise that involves field work to collect information; laboratory 
work to better understand the composition, properties and age of the 
materials collected; and the use of remote sensing to better 
extrapolate what has been learned in one location to a larger area. All 
of these aspects of geologic mapping cost money and require skilled 
practitioners. It becomes critically important for the USGS and the 
fifty State geological surveys to husband and leverage their resources. 
I can confidently tell you today that the National Cooperative Geologic 
Mapping Program has been extremely effective over the past 12 years 
doing exactly that. I would like to share some milestones of progress 
with you.
    During the 12 years since passage of the Act, the USGS and the 
State geological surveys have produced well over 7,500 new geologic 
maps. In 2003 alone, over 450 geologic maps and reports were published. 
Data in these maps cover a combined area of 125,000 square miles. The 
high priority areas selected to map were determined by stakeholder 
groups, land management agencies, and state mapping advisory 
committees.
    During the last 12 years geologic maps have been completed in 
National Parks, National Forests, and lands managed by BLM and other 
land-management agencies. To give one timely example, geologic maps of 
all four major National Forests in southern California were completed 
in the past year. These maps were put to good use by the Burned Area 
Emergency Response teams (BAER) that responded to the fires that 
devastated large areas between Los Angeles and San Diego. They are 
continuing to be used during the winter rainy season to predict where 
major debris flows, and or mud slides, might endanger the local 
communities.
    In 1993, the first year after initial passage of the Act, 34 state 
geological surveys and the USGS participated in this program to produce 
new geologic maps. In 2004 the number of State geological surveys 
participating has grown to 47. In that first year, $1.2 million was 
distributed to the state surveys. Since 2001, over $6.5 million in 
federal funds has been matched annually by state survey dollars. 
Cumulatively, over the 12 years of the program, approximately $50 
million has been distributed to 48 states, and these federal dollars 
were matched by $50 million in state dollars.
    In 1995 the education component of the program, EDMAP, was 
implemented to train the next generation of geologic mappers. This 
training component fills a gap generally not addressed through National 
Science Foundation grants and other mechanisms. In the first year of 
the program, fewer than 40 students received funds to do field work and 
learn how to construct a geologic map. Currently, over 550 university 
students from 120 universities across the Nation have received 
training. Initially, EDMAP only supported graduate students. In 2000, 
the decision was made to expand support to undergraduate students in 
the hope that this would positively influence their decision to 
continue in the Earth Sciences. We are presently in the process of 
surveying all former EDMAP recipients. I can report, from the 
information received to date, that this training program has been 
successful. Of those surveyed candidates that have responded, 100 
percent of the Masters and Ph.D. candidates and 82 percent of the B.S. 
candidates have all continued in geoscience. These figures are above 
the national averages and attest to the strength of EDMAP.
    In 1999 two economists from the Illinois State Geological Survey 
teamed up with the Kentucky Geological Survey to undertake a rigorous 
analysis of the economic benefits of detailed geologic mapping to 
Kentucky. Two conclusions from this study are particularly worth 
mentioning. First, the total value of the geologic mapping program, at 
the minimum, is at least 25 times the cost of the program. Second, even 
though the bedrock geologic maps produced in Kentucky were originally 
created primarily for the coal industry, during the past 20 years these 
maps have been used by a wide array of users for everything from 
exploring for groundwater resources to planning cities to finding 
minerals.
    Currently, USGS is in close coordination and agreement with the 
Association of American State Geologists (AASG) on this reauthorization 
bill and on associated geologic mapping issues. During the past year we 
have met to discuss the Act (P.L. 106-148) frequently, and while we 
recommend a few changes which I will discuss in a moment, we feel that 
the National Geologic Mapping Act continues to serve the Nation very 
well and needs little revision. The Act was also reviewed by the 
Federal Advisory Committee to the National Cooperative Geologic Mapping 
Program last month, and my comments today incorporate their conclusions 
as well.
    The principal changes in this reauthorization bill are: First, an 
increase from 48 percent to 50 percent of new funds, if appropriated, 
that will be made available for matching-funds grants to State 
geological surveys, second, an increase from 2 percent to 4 percent of 
new funds for matching-funds grants to Universities to train the next 
generation of geologic mappers, and third, keeping future authorization 
levels equal to the 2005 level in the present Act. These changes taken 
together will help ensure that all three parts of this critical 
program--the federal, the state, and the university components--will 
have the potential to respond to the growing national need for geologic 
maps and the information they provide.
    With the development of digital mapping technology and the 
Internet, geologic maps have become the most effective means of 
providing decision-makers and their geotechnical consultants with 
information that they need. All geologic maps being produced today 
under the auspices of the National Cooperative Geologic Mapping Program 
are digital, and each year more and more of these maps are being 
provided on the Internet. However, due to the labor intensive nature of 
producing geologic maps, a large percentage of the Nation, as noted in 
H.R. 4010, has yet to be mapped. We are encouraged by this legislation 
to continue in this critical effort. With the development of digital 
mapping technology, geologic mapping is experiencing a renaissance in 
its use and applicability. We anticipate increased demand for digital 
geologic maps in the future. During the past 12 years the USGS and the 
state geological surveys have worked together to implement the National 
Geologic Map Database, as called for in the Act. While this database 
provides a variety of tools and services, I would like to highlight 
just one--a catalog that provides information on almost every geologic 
map ever produced in the United States, and how anyone can obtain 
copies of the maps. This invaluable information spans 60,000 products.
    Mr. Chairman, in concluding my remarks, I would like to state that 
the National Geologic Mapping Act of 1992, and its subsequent 
reauthorizations, have been instrumental in helping focus attention on 
the Nation's need for a new generation of high-quality geologic maps. 
The Administration supports the reauthorization, but is concerned that 
the funding level authorized is not consistent with current 
appropriations or the President's 2005 budget request. Any additional 
funding for the National Cooperative Geologic mapping program will have 
to compete with other priorities.
    Thank you, Mr. Chairman, for the opportunity to express the views 
of the Administration on the National Geologic Mapping Act. I would be 
happy to respond to any questions you may have.

    Senator Craig. Well, thank you very much, Pat.
    Let me start with you with a question. What are the 
consequences of not engaging in geologic mapping efforts?
    Mr. Leahy. The consequences--decisions are made and, 
frankly, they will be made with or without a geologic map, but 
they will be uninformed decisions. Because they are uninformed, 
there will be expensive consequences in terms of errors. The 
maps themselves are a vehicle to make informed decisions that 
will reduce the cost of bad decisionmaking.
    Senator Craig. Such as building or not building on or near 
a fault line.
    Mr. Leahy. Exactly. Or putting a landfill in the wrong spot 
so it destroys an aquifer system.
    Senator Craig. Well, we will work hard to see if we cannot 
get this reauthorized. I think most Senators believe it makes 
good sense to know what is around us, about us, and under us, 
and that is what this is all about.
    David, approximately what is the amount of annual grants 
received by the U.S. territories from the Federal Government on 
an annualized basis? Do you have that figure?
    Mr. Cohen. Sir, to the best of our ability to gather this--
and the information is not always readily available--we have 
information from fiscal year 2002, and if I can just go through 
each of the insular areas and then I guess we could add them 
up. According to our information, and this is from the U.S. 
Census Bureau Consolidated Federal Funds Report for Fiscal Year 
2002, American Samoa received approximately $93.4 million, Guam 
received approximately $250.6 million, the Northern Marianas 
received approximately $66.1 million, and the U.S. Virgin 
Islands received approximately $266.4 million.
    This is not broken down by whether these are formula grants 
or discretionary grants and little other information is given.
    Senator Craig. With that current level of participation, 
how would 1182 change--1189 change that?
    Mr. Cohen. Mr. Chairman, it is difficult to determine. H.R. 
1189 is drafted to apply to all grants, not just formula 
grants. Having said that, we would have to research, and we 
would be happy to attempt to do this for you, how much of those 
grants are subject to matching requirements in order to give 
you some sort of dollar value estimate of the effect of H.R. 
1189.
    Senator Craig. Well, we may well work to try to find out 
what the fiscal impact of that would be.
    Do we know if we have an OMB analysis of it or CBO? We do 
have a CBO score.
    Mr. Cohen. I would suggest, Mr. Chairman, that the fiscal 
impact would be indirect because it would not necessarily 
affect the amount of grant funds that go out to the 
territories. It would affect the amount, of course, that the 
territories would be required to put up.
    Senator Craig. Right. But oftentimes when there is less 
required to put up there is a tendency to send more or there is 
an encouragement of doing so because there is not the need of 
requirement to match, and so there is a fiscal impact usually. 
I understand CBO scores it at about $2 million.
    Has DOI attempted to ascertain the local support for S. 
2010? Has there been any effort to make a determination of what 
local support is for this change in the election, for this 
legislation that would allow change in the election process?
    Mr. Cohen. Mr. Chairman, it has been difficult to do that 
on a scientific basis. The Congress, which is a legislative 
body, might be in a better position to do that. We do know 
views expressed by certain important leaders in American Samoa 
society and I believe you have some of those for the record.
    Senator Craig. We do.
    Mr. Cohen. To the extent that you do, I guess rather than 
our trying to be a second-hand interpreter of that, we would 
encourage you to rely on those statements.
    Senator Craig. I appreciate that.
    Do either of my colleagues have questions of these 
gentlemen?
    Senator Akaka. Mr. Chairman.
    Senator Craig. Yes.
    Senator Akaka. I do have questions, but I will submit them 
for the record.
    Senator Craig. All right.
    Senator Thomas. Mr. Chairman, I have one.
    Mr. Leahy, this reauthorization continues the program and 
so on. Who actually does the mapping?
    Mr. Leahy. Well, three components of the program: FEDMAP, 
STATEMAP, and EDMAP. The FEDMAP is generally done by staff of 
the U.S. Geological Survey. The STATEMAP component is done by 
the members of the State surveys. And EDMAP are students under 
the mentorship of a professor.
    Senator Thomas. Is there any private activities? Is there 
any contracting?
    Mr. Leahy. There is some contracting, but generally it is 
for support type activities, for example printing of maps, 
those sorts of things, perhaps some specialized analysis that 
we may lack the capability, or are so common that it is easy to 
contract out.
    Senator Thomas. There are some circumstances in which the 
commercial mappers are better equipped to do some things than 
others.
    Mr. Leahy. The commercial sector, there is not a conflict 
with the commercial sector. In fact, most site specific mapping 
is done by the commercial sector, consulting firms. They are 
very dependent on the maps that the State and the Federal 
Government produce because it allows them a context in which to 
put their very detailed mapping in.
    Senator Thomas. I just urge the use of the private sector 
whenever that is efficient and possible. Thank you.
    Senator Craig. Well, gentlemen, thank you very much.
    Yes?
    Senator Akaka. May I make a comment?
    Senator Craig. Please do, Senator Akaka.
    Senator Akaka. Thank you so much.
    As a person from the Pacific, I want to make a comment 
about H.R. 2010. I know that Secretary Cohen knows this very 
well. This bill that we are considering will resolve a 
longstanding problem of electing the delegate from American 
Samoa. This bill will provide for election of the delegate by 
plurality or, if the local government wants, by majority vote 
following a primary election. This would solve a problem made 
worse by the current conflict in the Middle East, where many 
Samoans have gone, and this will help in absentee voting as 
well if this is changed.
    So I speak out to try to move as quickly as we can on this. 
Thank you very much.
    Senator Craig. Well, Senator, thank you very much.
    Gentlemen, again thank you very much for your testimony. As 
we work through this legislation, I am sure we will be 
consulting with you on the recommendations you have made. Thank 
you.
    Now let me ask our second panel to come forward if they 
would, please. This panel is going to cover largely two bills 
and two topics, so I am going to divide it so that we can deal 
with U.S. geological mapping first and then we will go to my 
colleague from Wyoming and deal with soda ash. So, having said 
that, let me introduce Robert G. Marvinney.
    Dr. Marvinney. ``MAR-vinney.''
    Senator Craig. ``MAR-vinney.'' President, American 
Association of State Geologists, State geologist, Maine 
Geologic Survey of Augusta, Maine; and Dr. James C. Cobb, State 
geologist, Kentucky Geological Survey, University of Kentucky, 
Lexington, Kentucky.
    Mr. Marvinney.

 STATEMENT OF ROBERT G. MARVINNEY, Ph.D., PRESIDENT, AMERICAN 
ASSOCIATION OF STATE GEOLOGISTS, DIRECTOR AND STATE GEOLOGIST, 
                    MAINE GEOLOGICAL SURVEY

    Dr. Marvinney. Mr. Chairman and members of the committee: 
Thank you very much for this opportunity. I am Robert 
Marvinney, Maine State geologist and the current president of 
the Association of American State Geologists, and I am speaking 
in support of S. 2353. The Association of American State 
Geologists, the AASG, represents the heads of the geological 
surveys in the 50 States plus Puerto Rico and the Association 
was founded in 1908 and seeks to advance the practical 
application of earth sciences in the United States.
    I wish to emphasize the effectiveness and success of the 
National Cooperative Geologic Mapping Program from the States' 
perspective. In terms of program management, having been 
involved with the program for more than 9 years, I am 
continually reassured by the sound administration of the 
program by the U.S. Geological Survey. Being a State geologist, 
I do not offer those comments lightly, and neither does the 
AASG, which insists that the USGS facilitate making this 
program a success.
    This is accomplished in a number of ways, in part by AASG 
representation on the program's Federal advisory committee. 
Additionally, the AASG has membership on the panels that review 
proposals to the three components of the program: the FEDMAP 
program for Federal projects, STATEMAP program for State 
projects, and the EDMAP programs for the university projects.
    Also, each State is required to have an advisory committee 
made up of users of geologic maps. In my State, for example, my 
advisory committee consists of representatives from various 
State Departments, environmental protection, transportation, 
the State's drinking water program, representatives from 
Maine's academic institutions, and consulting geologists and 
engineers, commercial water bottlers, and the forest products 
industry.
    So as users of geologic maps, each of these advisory 
committees offers objective and constructive input to each 
geological survey as it develops its mapping plan. So the 
program is user-driven. We take input from these committees 
very seriously.
    The STATEMAP awards to the States are awarded through a 
competitive process. We have a review panel which carefully 
evaluates the STATEMAP proposals and the process by which the 
funding levels are determined is a rigorous, objective, and 
fair process. By no means does a State simply get a grant just 
by providing, submitting an application. These are reviewed 
very carefully through numerous criteria, probably the most 
important of which is did this particular State provide the 
products that they said they would from the previous year's 
mapping effort. I know personally if a State does not complete 
their maps then they do not get additional funding in the next 
year.
    I cannot overemphasize the importance of the matching 
requirement of this program. State and Federal dollars are 
matched one for one, so scarce funds are leveraged on both 
sides.
    In terms of the accomplishments, we heard from Mr. Leahy 
that over 7,500 new geologic maps have been produced through 
this program, and still we have only 25 percent of the State 
mapped at a level that is necessary for applications to energy, 
mineral and water resources, environmental protection, hazards, 
as well as homeland security.
    An example from my State. The STATEMAP mapping effort 
directly underpins my work in defining groundwater aquifers. 
The numerous sand and gravel deposits left by the last 
glaciation are the most important water resources in the State 
and with 50 percent of the citizens drawing their water supply 
from groundwater, aquifer maps made possible through STATEMAP 
are absolutely critical to understanding the distribution of 
water resources and their careful stewardship.
    These maps are used by municipalities and commercial water 
bottlers in their searches for adequate water sources.
    So in summary, I want to just conclude that the National 
Geologic Mapping Program is an excellent Federal and State 
partnership with proven productivity and societal relevance. 
Thank you very much.
    [The prepared statement of Mr. Marvinney follows:]

 Prepared Statement of Robert G. Marvinney, Ph.D., President, American 
 Association of State Geologists, Director and State geologist, Maine 
                     Geological Survey, on S. 2353

    I am writing in support of the National Geologic Mapping 
Reauthorization Act of 2004.
    I have been Maine State geologist for the past nine years and am 
also the current President of the Association of American State 
Geologists (AASG), an organization representing the State geologists of 
the 50 United States and Puerto Rico. Founded in 1908, the AASG seeks 
to advance the science and practical application of geology and related 
earth sciences in the United States and its territories, commonwealths, 
and possessions. The AASG also serves to improve the overall 
effectiveness of State Geological Surveys through the interchange of 
ideas and techniques especially as they relate to the collection, 
organization, preservation, and dissemination of data and information 
essential for the wise stewardship of energy, mineral, and water 
resources within each of the States.
    I wish to emphasize the effectiveness of the National Cooperative 
Geologic Mapping Program from the State's perspective. I focus on three 
important aspects of the current NCGMP, and hope to demonstrate to you 
the success of the program and thereby encourage the passage of the 
National Geologic Mapping Reauthorization Act of 2004.
    The National Cooperative Geologic Mapping Program was created with 
the passage of the National Geologic Mapping Act of 1992. Since then, 
the Act has been reauthorized in 1997 and 1999, each time by unanimous 
consent of Congress and with strong bipartisan support, attesting to 
the success of the program. Since 1993, the NCGMP has supported new 
mapping in 49 of the 50 States plus Puerto Rico.

                           PROGRAM MANAGEMENT

    Having been involved with the NCGMP for more than nine years, I am 
continually reassured of the sound administration of the Program by the 
U.S. Geological Survey. I do not offer that comment lightly, for State 
geologists, through the AASG, insist that the USGS facilitate making 
this cooperative program a success. This is accomplished by a number of 
means, the most prominent of which is through AASG representation on 
the NCGMP's Federal Advisory Committee. The AASG believes this 
committee provides an important forum for the State government and 
private sectors, academia, and other Federal agencies to assist in 
evaluating the progress of the Federal, State, and university geologic 
mapping activities undertaken to fulfill the National Geologic Mapping 
Act of 1992. Additionally, the AASG has membership on the panels that 
review proposals to the three components of the program: FEDMAP for 
federal projects; STATEMAP for state projects; and EDMAP for university 
projects.
    Within each State, and as a requirement of the STATEMAP Program, 
there is an advisory committee composed of what we often refer to as 
end-users, individuals who utilize geologic maps to address issues of 
importance in their respective professions or areas of expertise. 
Typically these committees are composed of individuals from State, 
county, municipal, and local Federal government offices; academicians 
and teachers; researchers; petroleum and mineral explorationists; 
environmental consultants; and those in the private sector for whom 
earth science plays an important role in their businesses. In Maine, 
for example, the Geologic Mapping Advisory Committee consists of 
geologists from the Departments of Environmental Protection and 
Transportation, representatives from the state's Drinking Water 
Program, representatives from Maine's academic institutions, consulting 
geologists and engineers, commercial water bottlers, and the forest 
products industry.
    The process of geological mapping is an evolving task. As society's 
needs have changed over the decades, so have the information 
requirements of geologic maps. The State Geological Surveys are 
sensitive to these information needs, and they are continuing to 
conduct geological mapping with modern technologies to create maps that 
will aid in addressing societal issues.
    Members of each of the State's geological mapping advisory 
committees are individuals who, as end-users, are in a position to 
offer objective and constructive input to each State Geological Survey 
as it develops its mapping plans. The advisory committee plays an 
important role in providing grassroots guidance and assisting with 
setting mapping priorities with each successive year of the program. 
Hence, the STATEMAP component of NCGMP is user-driven and locally-
controlled to address customer's needs.
    STATEMAP awards are granted to the States annually, following a 
truly competitive process. A STATEMAP Review Panel carefully evaluates 
STATEMAP proposals submitted to the USGS. The fairness of the process 
is tantamount, as the USGS and the AASG share equally in determining 
award levels for the forthcoming year's mapping season and map 
production efforts. Representatives of the AASG on the Review Panel are 
elected by their fellow State geologists, and service on the Review 
Panel is limited to three years, on a rotating basis. The process by 
which funding levels are determined is rigorous, objective, and 
reassuringly fair, as any peer-review process should be. By no means 
does any State receive a STATEMAP grant automatically by merely 
applying for one. Each proposal is considered in accordance with 
numerous criteria, the most important of which require annual 
productivity of high quality digital geologic maps.
    In addition, I cannot overemphasize the importance of the matching 
requirement in this Federal / State partnership. Scarce funds are 
leveraged on both sides, and the end result is a stretching of 
resources to benefit both the Nation as well as the respective States.
    The National Geologic Mapping Act as originally authorized 
emphasizes partnerships between State and the Federal governments. I am 
pleased to relate to you that the USGS administrators of the STATEMAP 
Program are dedicated professionals, who are intent on managing what is 
truly an active partnership between the USGS and the state geological 
surveys. Toward that end, the Program administrators are open and 
responsive to suggestions from State geologists and from State mapping 
advisory committees to improve upon and enhance an already well-run 
program. Moreover, the STATEMAP Review Panelists meet at length before 
and immediately after the annual review process to evaluate the review 
procedures themselves and make adjustments in the successive year's 
criteria. In being receptive and responsive, the USGS administrators 
have been able to create and evolve a program that possesses not only 
relevancy and fairness, but one to which all parties are overwhelmingly 
supportive.

                            ACCOMPLISHMENTS

    The USGS testimony has mentioned the success of the NCGMP in terms 
of the number of maps created: the combined FEDMAP, STATEMAP, and EDMAP 
efforts have produced more than 7,500 new geologic maps and modern, 
digital versions of earlier detailed maps. Yet, with this amazing level 
of productivity over the past twelve years, still only approximately 
25% of the Nation is mapped at a scale that is adequate for most 
applications to energy, mineral, and water resources, environmental 
protection, risk reduction from natural hazards, as well as addressing 
issues of homeland security.
    As an example of the importance and societal relevancy of geologic 
mapping in my home State of Maine, STATEMAP products serve as the 
underpinning for groundwater aquifer maps. The last glaciation in Maine 
left behind numerous and complex deposits of sand and gravel that are 
among the best water supplies in the state. With fifty percent of the 
citizens of Maine using groundwater for their domestic water supply, 
aquifer maps made possible through STATEMAP geologic mapping are 
fundamental to understanding the distribution of these water resources 
and ensuring their careful stewardship. Municipalities and commercial 
water bottlers both use aquifer maps in their searches for adequate 
water sources. STATEMAP products are also vital to our efforts to 
understand the distribution of arsenic in bedrock groundwater. Nearly 
10% of private wells in Maine have arsenic in higher than acceptable 
concentrations, most of it naturally leaching from the bedrock. My 
agency works with the Maine Bureau of Health to identify bedrock units 
and conditions that contribute to these high arsenic levels. Careful 
mapping of the bedrock geology is required to understand the 
distribution of this problem in order to focus assistance programs.

             GEOLOGIC MAPPING DATABASE AND DIGITAL MAPPING

    The AASG has worked very closely with staff of the USGS in 
establishing and constructing the National Geologic Map Database as 
required by the National Geologic Mapping Act of 1992. The database, 
available at the USGS Website, continues to grow annually, and it has 
proven to be a valuable information resource, a central location for 
ready access to over 60,000 maps.
    Additionally, digital mapping specialists of the AASG and the USGS 
cooperate closely with others from government, private industry, and 
academia who are involved with developing digital mapping protocols and 
attending to the National Spatial Digital Infrastructure standards 
established for metadata. Because of this collective effort, the 
standards have been widely accepted by those who compile digital 
geologic maps.
    In the true spirit of a partnership the AASG and USGS co-sponsor 
and organize an annual digital mapping techniques workshop. Now in its 
eighth year, this event brings together digital mapping specialists to 
exchange ideas and techniques essential for the efficient and 
economical construction of digital geologic maps. The proceedings of 
the workshop are published each year by the USGS and available over the 
Internet, so that more than those who attended the meetings can benefit 
from this growth in knowledge.
    In conclusion, the NCGMP is an excellent Federal / State 
partnership with proven productivity and societal relevance. I strongly 
urge your positive consideration for the National Geologic Mapping 
Reauthorization Act of 2004.
    Thank you for this opportunity to provide written testimony.

    Senator Craig. Well, thank you very much.
    Now let me turn to Dr. Cobb.

    STATEMENT OF JAMES C. COBB, Ph.D., STATE GEOLOGIST AND 
 DIRECTOR, KENTUCKY GEOLOGICAL SURVEY, UNIVERSITY OF KENTUCKY 
                GEOLOGICAL SURVEY, LEXINGTON, KY

    Dr. Cobb. Good afternoon, Mr. Chairman and members of the 
subcommittee. I am Jim Cobb, State geologist of Kentucky, and I 
am here because Kentucky is in a very unique position. We are 
the only State that is completely mapped geologically. So I am 
here to testify as to what geologic mapping has done in our 
State.
    Our geologic maps have been in circulation for 25 years, so 
this pilot study, if you will, began 25 years ago, and we have 
sold more than 200,000 copies of our geologic maps. The USGS, 
in partnership with Kentucky back when Kentucky needed economic 
development, we needed a stimulant to help our mineral 
production, the USGS in partnership with Kentucky set out to do 
a very bold thing that had never been done. We mapped together 
over a 20-year period all 707 quadrangles in Kentucky. It has 
not been matched in any other State, and so we are in a perfect 
position to sort of tell you what this has done for at least 
one State.
    Doing an independent economic analysis of this mapping has 
shown that the value of these maps over these years equals 
somewhere in the neighborhood of $3.3 billion. In 1999 dollars 
when we did the analysis, the cost of the program was $90 
million. The $90 million has produced for us in Kentucky $3.3 
billion, 39 times the cost. This is just amazing. So obviously 
we think that the Nation, the whole Nation, not just Kentucky, 
needs to be mapped.
    Geologic maps are kind of interesting. They are like 
topographic maps and other kinds of public goods. Geologic maps 
are considered a public good, just like a highway or a 
reservoir or a dam or a landfill. In fact, geologic maps help 
us build better roads, better dams, better reservoirs, better 
landfills, and they help us do it more safely, more 
environmentally sound, and more economically.
    In my professional experience over 30 years of doing this, 
geologic maps are both valuable and democratic. They are 
extraordinarily valuable because they help us produce our 
minerals, safeguard our environment, safeguard our water, which 
is extremely important, and encourage the development of these 
vital fuels and minerals that we all require. It is democratic 
because it helps everybody. Even if you have never bought one 
of these maps--and I have to say most people have not. But even 
if you have never bought one of these maps, it helps in 
developing our industrial parks. Everything in our 
infrastructure requires a geologic map to figure out what the 
foundation of our foundations really are, and that comes from a 
geologic map.
    So private citizens use them. Farmers use them. In fact, in 
America we sort of require that our citizens, our farmers, our 
municipalities, our factories, all take care of the land that 
they have. The tool that links together their activities with 
the land and the water, the blueprint of that, comes from a 
geologic map. And sometimes we do not have it, and therefore 
mistakes can be made.
    So what I am suggesting is the entire Nation, not just 
Kentucky, the entire Nation needs to be mapped geologically at 
an appropriate scale for wherever we are in the Nation.
    We have now, under the National Geologic Mapping Act, 
converted in Kentucky--this is amazing--converted all of these 
maps to a computer format. So if you are a miner or a 
developer, you can log on to a web site and you can get the 
information you need from our online map services. So that 
means if you are trying to decide if you are going to drill an 
oil well or if you are going to put in an industrial park and 
you need to know what those rocks are, how you are going to 
build your buildings, you can get that information over the 
Internet, which--you know, businessmen do not necessarily stop 
at 5. They sometimes go late into the night, and we can now 
make the information that they need available over the 
Internet.
    So when the mapping was done Kentucky went from third in 
the Nation in coal production to No. 1, and that is the kind of 
stimulant it did for us economically. So obviously Kentuckians 
are big fans of this, and I am proud of Senator Bunning for 
being a cosponsor of this and he recognizes the value of these 
maps to our State.
    Sort of in--well, in conclusion I just want to say that 
back in the 1960's and 1970's when we were ramping up our coal 
production and these maps were coming off the printing presses 
and did such a great job to stimulate our economy--in today's 
world, we are now looking at these maps to find places to put 
that carbon in the atmosphere back into the earth, because 
sequestration I am sure is something you have heard about and 
probably discussed. Well, it is the geologic maps now that are 
going to allow us to prospect Kentucky and find the sites we 
want to store that carbon underground.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Cobb follows:]

    Prepared Statement of James C. Cobb, Ph.D., State Geologist and 
Director, Kentucky Geological Survey, University of Kentucky Geological 
                   Survey, Lexington, KY, on S. 2353

    Mister Chairman and Members of the Subcommittee, thank you for this 
opportunity to present testimony in support of S. 2353 to reauthorize 
and amend the National Cooperative Geologic Mapping Act of 1992. I am 
Jim Cobb, State Geologist of Kentucky and Director of the Kentucky 
Geological Survey at the University of Kentucky. I am a member of the 
Association of American State Geologists and have worked closely with 
the U.S. Geological Survey and other state geological surveys. I am in 
a good position to comment on the value of geologic mapping to society 
because Kentucky is the only state of large area to be completely 
mapped geologically at a detailed scale. Therefore, using Kentucky's 
experience as an example for the Nation, geologic mapping has been 
enormously valuable.
    I have observed from personal experience over more than 30 years 
that geologic mapping is one of the most valuable and democratic 
activities that government can undertake. It is valuable for many 
reasons. It facilitates economic development, the wise production of 
vital minerals and fuels, the safeguarding of water resources, 
environmental protection and remediation, and the mitigation of hazards 
such as landslides, floods, and earthquakes. It is democratic because 
all of society benefits from geologic mapping when it is available, by 
virtue of better decisions being made about resource production, hazard 
mitigation, and planning. Because it is a government undertaking, the 
maps and data produced are widely distributed and made available to the 
public at low cost. Therefore, the private citizen, the mining company, 
state and federal agencies, and environmental advocates can all equally 
have access to this vital information.
    Not all programs conducted by government have such broad and far-
reaching positive implications in society. Economically, its cost-
benefit ratio is excellent, returning 25 to 39 times the cost of the 
program to the tax payer. Few government programs have such an 
outstanding record of value returned to the taxpayers. Again citing the 
Kentucky example, geologic maps have been the most popular publications 
ever made about Kentucky land and resources. More than 200,000 geologic 
maps have been sold, more than all other geologic publications 
combined. In the United States, farmers, factories, municipalities, 
private industry, and private citizens are expected to maintain their 
land and water and prevent pollution from adversely affecting the 
environment. There are a myriad of regulations from local, state, and 
the federal governments to ensure the protection of our environment. 
But the citizens do not always have the necessary tools to understand 
the connections between the land and water and their activities. 
Geologic maps are basic blueprints that show how the land and 
groundwater are linked. Therefore, a geologic map is a necessary tool 
for preventing land and water pollution and should be available for all 
areas in the United States.
    In the 1960's and 70's when Kentucky was mapped, the driving force 
behind the mapping was mineral production especially coal, oil, 
minerals, and natural gas. Kentucky's coal production rose to number 1 
in the Nation because geologic mapping showed many new mineable coal 
reserves. Geologic mapping was a great stimulus for economic 
development at a time when it was greatly needed. It was recorded at 
the time that the taxes from the coal identified on just a few geologic 
quadrangle map were enough to cover the entire cost of the program for 
Kentucky.
    The Kentucky geologic maps are an ideal example to study because 
they have been in circulation for more than 25 years, long enough for a 
meaningful evaluation. The popularity of geologic maps in Kentucky is a 
measure of how much the maps are valued, but a rigorous economic cost-
benefit analysis of the mapping was needed to prove the economic value 
of the mapping. A total of 2,200 questionnaires about the geologic maps 
was sent to professional geologists and engineers registered in 
Kentucky. Twenty percent of the questionnaires were completed and 
returned for analysis. The questionnaires asked the following: (1) How 
are the maps used? (2) What are the maps worth to the user? (3) What 
are the maps worth to the state?
    The responses indicated a wide variety of uses for the maps, some 
of which could not have been anticipated at the time the mapping 
program began. Some of the most common uses were:

  <bullet> Exploring for and developing groundwater resources
  <bullet> Exploring for and locating mines
  <bullet> Cleaning up environmentally damaged sites
  <bullet> Avoiding karst hazards
  <bullet> Designing foundations for engineering
  <bullet> Making zoning and city planning decisions
  <bullet> Locating waste-disposal facilities
  <bullet> Evaluating property
  <bullet> Identifying hazards such as landslides

    The question, ``what are the maps worth to the user,'' was answered 
in several different ways. The users said they saved an average of 
$43,527 because the maps were already available and therefore they did 
not need to do the mapping themselves. Gathering only the minimum 
amount of information necessary for them to do a credible job would 
have cost an average of $27,776. Geologic mapping was so vitally 
important to their work that they estimated a map was worth 17 percent 
of their total project cost. Seventeen percent of the cost of a section 
of highway, an industrial park, a landfill, or other infrastructure is 
a significant amount of money for society.
    A total of $21 million (1970 dollars) was spent on the mapping from 
1960 to 1978. The dollars were equally divided between state and 
federal contributions. Field geologists from the U. S. Geological 
Survey carried out the majority of the mapping. It is important to ask, 
``Have the taxpayers gotten their money's worth?'' If we multiply 
$27,776 (cost to gather minimum information necessary to do a credible 
job) by 81,000 (minimum number of maps sold by KGS alone), we get a 
minimal value of $2.25 billion for the maps; if we multiply the 81,000 
maps sold by $43,527 (the amount already having a map saved the users), 
we get a maximum value of $3.53 billion for the maps. If we subtract 
the cost of the mapping program ($90 million, in 1999 dollars) from the 
minimum value of $2.25 billion, we see a net gain of $2.16 billion. 
This is a remarkable return on the taxpayer's investment of $90 
million!
    The public has been extremely well served by the mapping program, 
as demonstrated by this cost-benefit analysis. Even if you have never 
bought a geologic map, you still benefit from them. That is because 
they are considered ``public goods,'' much the same as roads, dams, 
locks, reservoirs, and landfills are--in fact, geologic maps make it 
possible to build better roads, dams, locks, reservoirs, and landfills, 
and build them more economically. And the public will continue to reap 
the benefits of the maps because the information they contain will 
continue to be used for many more decades. Another example of the 
popularity and value of the Kentucky geologic maps is the interest the 
maps have raised among non-geological users groups in the state; such 
as the Kentucky Counties Association, Area Development Districts, the 
Natural Resources Conservation Service, Kentucky League of Cities, 
Kentucky Chapter of the American Planning Association, and various 
municipal, county, and state agencies. These groups are composed of the 
people responsible for enforcing regulations and protecting the 
environment as well as planning and zoning. Incorporating geologic maps 
into land-use decisions has become a major use for geologic maps.
    This year Kentucky passed a major milestone in geologic mapping for 
the Nation. All of the original printed geologic quadrangle maps (GQ's) 
(1:24,000-scale, 7.5-minute) for Kentucky, 707 maps in total, have been 
converted into digital format. This is an unprecedented accomplishment 
in the United States. Kentucky is truly a national leader in this area. 
The National Cooperative Geologic Mapping Act of 1992 and subsequent 
reauthorizations of this legislation have funded this program in part. 
This activity is a 50:50 cost share between the U.S. Geological Survey 
and the Kentucky Geological Survey. The U.S. Geological Survey and the 
Association of American State Geologists administer the National 
Cooperative Geologic Mapping Program (http://ncgmp.usgs.gov/). The 
government sponsorship of the program has ensured that the highest 
standards have been maintained in digitizing the data, that appropriate 
metadata has been provided to assist the users, and that the products 
are inexpensively distributed to the public.
    The conversion of the paper maps into a digital format has numerous 
benefits:

  <bullet> Many GQ's are now out of print. The new digital geologic map 
        data permanently preserves this valuable geologic information 
        for use by future generations.
  <bullet> The digital format allows corrections, additions, and 
        changes to be readily made to the original map data. This saves 
        time and money because it would be prohibitively expensive to 
        print revised maps.
  <bullet> Digital data from each quadrangle can be easily distributed 
        to users on CD-ROM or through the World Wide Web, and this 
        makes the data much more accessible.
  <bullet> The digital format allows users to manipulate and analyze 
        the data in a variety of computer applications and is 
        particularly useful in geographic information systems (GIS).
  <bullet> All of the geologic data for the maps can be seamlessly 
        joined together to provide a regional perspective and generate 
        new maps at different scales.
  <bullet> Data from the individual GQ's are being digitally compiled 
        to create new 1:100,000-scale, 30 <greek-e> 60 minute geologic 
        maps for Kentucky.
  <bullet> The digital geologic data from all 707 GQ's will be 
        incorporated into a statewide GIS of geologic data, which will 
        be made available to the public on the World Wide Web, 
        providing access 24 hours a day, 7 days a week.

    Recently, the Commissioner of the Department of Natural Resources, 
Kentucky Environmental and Public Protection Cabinet, commented on 
geologic mapping by saying, ``I applaud the dedicated staff at the 
Kentucky Geological Survey for reaching such a momentous milestone. For 
the first time in our history, decision-makers across Kentucky will 
have instant access to critical information that will allow them to 
make well-informed decisions regarding future development and 
protection of our natural resources.'' The president of GRW, an 
engineering and mapping company in Lexington, Kentucky, said, ``Having 
this data in digital format allows for easy and inexpensive 
distribution by electronic means. This greatly benefits the many and 
varied uses and allows for greater flexibility in the use of the data. 
Users can easily create new maps and new data by overlaying different 
maps. The potential additional uses are virtually limitless.'' As 
previously stated, the economic return to society from the investment 
of government funds for geologic mapping in Kentucky (1960-1978) was 
between 25 and 39 times greater than the program costs. The economic 
return to society that will result from digital geologic maps will 
likely exceed that of the original printed maps. The digital maps can 
be used in many more ways and can be distributed much more widely than 
the printed paper maps.
    Kentucky has a proud legacy of geologic mapping together with the 
U.S. Geological Survey and the other state geological surveys. In 1978, 
with the help of the U.S. Geological Survey we became the first state 
in the Nation to achieve complete geologic map coverage. Now because of 
the National Cooperative Geologic Mapping Act we celebrate the fact 
that Kentucky is the first state in the Nation to have complete digital 
geologic map data for the entire state. This provides an incredible 
foundation of geologic information that is easily accessible, 
inexpensive, and widely distributed for the benefit of future 
generations of people in the Commonwealth. I am proud that Senator 
Bunning is co-sponsoring this bill that will be so vital for the future 
of our Nation and Kentucky.

    Senator Craig. Well, thank you both very much for your 
testimony. I was sold before you got here and you have sold me 
more. There is no question that they are critical and necessary 
for the effective development of our country and to do so in an 
environmentally sound way. So we very much appreciate your 
testimony and we will aggressively expedite trying to move this 
legislation through. If there are any questions we will submit 
them to you in writing for any response.
    Craig, do you have any questions of these gentlemen?
    Senator Thomas. No, sir, I do not. I might want to talk to 
Dr. Cobb later about who is the largest coal producer in the 
United States, but I will not.
    Dr. Cobb. We were then.
    [Laughter.]
    Senator Craig. Well, something happened to our geology, a 
little volcanic activity, tended to burn it up, I think. So 
Idaho is not going to get involved in that debate, all right.
    What I am going to do now is turn the balance of the 
hearing over to Senator Craig Thomas. It is an issue that deals 
with an important critical resource in his State. He has 
opening comments and he will introduce the balance of our 
panelists to talk to that issue.
    So, Craig, I will hand you the gavel and let you proceed.
    Senator Thomas [presiding]. Thank you, sir. Well, I 
appreciate very much your having the hearing for this bill. It 
is a jobs bill for us in Wyoming and it has to do with putting 
people back to work.
    Senator Craig. Can I interrupt for just a moment and ask 
unanimous consent that two statements become a part of this 
committee hearing's record.
    Senator Thomas. Without objection.
    Senator Craig. Thank you.
    Senator Thomas. So what we are really talking about here is 
maintaining one of the most important economic activities in 
our State. Wyoming accounts for about 85 percent of the natural 
soda ash produced in the United States and the whole future of 
this industry is at stake right now. It has much to do with 
foreign markets and over the last several years the foreign 
market has been the opportunity.
    So we are talking about here a way to assist in maintaining 
this economic activity, maintaining these jobs that are there, 
and maintaining our position, being able to compete with China 
and the things that are happening there.
    So I thank the witnesses very much: Mr. Michael Burd, vice 
president of the United Steelworkers Union, which represents 
workers there of course, as well as unions that transport the 
goods to the coast and all those kinds of things; Mr. John 
McDermid, who is counsel to the American Natural Soda Ash 
Corporation, the corporation that does most of the marketing in 
the Asian area and the overseas work for them; and Mr. Marion 
Loomis, who is the executive vice president of the Wyoming 
Mining Association and is involved there.
    So, gentlemen, thank you so much for being here. We will 
start with you, Mr. Burd, if you please.

     STATEMENT OF MICHAEL K. BURD, VICE PRESIDENT, UNITED 
STEELWORKERS OF AMERICA LOCAL 13214, FMC WYOMING ALKALI PLANT, 
                        GREEN RIVER, WY

    Mr. Burd. I think you have pretty much said everything I 
needed to, Senator. But anyway, thank you. My name is Michael 
Burd. I am the vice president of the United Steelworkers of 
America Local 13214 at the FMC site and mine in southwestern 
Wyoming. I represent about 600 members at our site and, sadly, 
that number is down from 650 when the hearing was held on this 
matter in Rock Springs in April, due in part to another work 
force reduction. It is the politically correct word, I guess, 
for layoffs these days.
    Anyway, the 600 members at our site and the 400 steelworker 
brothers and sisters at the General Chemical site, along with 
800 workers at OCI in Solvay, we are tired of seeing our 
families, friends, and neighbors lose these good-paying jobs. 
Our industry is getting hit by many different factors that are 
causing the decline in the United States soda ash industry, of 
which approximately 90 percent is produced in Wyoming.
    Mr. Chairman, over the last 5 years we have lost 400 jobs 
alone at FMC and another 300 throughout the trona patch. This 
contributed to the FMC Granger site being mothballed. That 
facility has the capability of producing 1.2 million tons of 
soda ash and if it were running at 100 percent it would employ 
more than 200 people.
    We in Wyoming sit on top of the world's largest known trona 
deposit and with the current technology we have over 100 years 
of reserves yet to mine. Our plant operators and our 
underground miners are some of the best in the world. But how 
can we compete with China facing the hurdles that we have in 
southwestern Wyoming? One of the biggest is our rail service. 
We have only one carrier that holds a monopoly on getting our 
product delivered. The cost of a ton of soda ash to our 
customers is increased by 50 percent due to transportation 
rates.
    Another factor is the price of energy. Natural gas has more 
than doubled in the past few years. An increase of one dollar 
per MBtu is an increase of $20 million to the Wyoming 
producers. The truly ironic part is this has happened while 
Wyoming is in the middle of a natural gas boom.
    But mainly we have the foreign competition in China. China 
has gone from an importer of soda ash to the world's No. 1 
exporter, a distinction that Wyoming producers held until just 
recently. How? Because they build and operate state-sponsored 
plants and pay their workers next to nothing. They do not 
concern themselves with the environmental degradation that 
comes from running high-energy and dirty synthetic plants. They 
build their facilities next to ports to assure minimal 
transportation costs and they care not about workers' rights, 
safety, or the environmental standards.
    How can American workers try to compete with this type of 
recklessness and disregard for human rights in the world we all 
share? The White House, whomever is in control, should present 
a workers' rights violation case against the Chinese through 
the World Trade Organization.
    Last year our trade deficit with China was over $120 
billion. All the American soda ash workers and producers want 
is a level playing field. If that were to occur, with our 
highly productive and modern plants and our professional work 
forces, Wyoming could supply the entire world with the best 
product available.
    S. 2317 proposes to lessen the mineral royalties on soda 
ash from 6 to 2 percent. During the nineties the rate was 
raised from 2 percent to the current 6, but the industry was 
doing very well at that time and the exports were on the rise. 
That is not the case today.
    It is not without a degree of concern that my fellow 
workers and I do support this legislation. I am a Wyoming 
native and I want to live and retire in that beautiful State. 
We all know that once a mineral is taxed and taken away it 
cannot be taxed again. But Wyoming is currently in the very 
enviable position of having something that most of the Nation 
would love to have. We have a very large budget surplus. So if 
we are going to do this the time is now. Governor Freudenthal 
has acknowledged this also in a letter of support to this 
committee.
    I have no illusions that this will be the silver bullet to 
cure all the industry's woes, but I hope it will help. And 
maybe, just maybe, Senator, we can create some jobs in 
southwestern Wyoming. At the very least, hopefully we will not 
lose any more.
    I have become very disillusioned watching my friends and 
neighbors leave the State in search of jobs elsewhere. Even 
worse than that, Wyoming is losing something even more 
precious, its future. We are losing our young people, Senator. 
Between Green River and Rock Springs, several grade schools 
have closed over the past few years. We simply do not have the 
children to support them. And of course, when the schools close 
the teacher and the staff that worked at those schools are gone 
also. Every job that we have that is lost in the trona industry 
translates into the community many times over.
    As I said earlier, we are currently in a natural gas boom, 
but it will not last. One day it will slow down or stop 
altogether. Meanwhile, the trona industry has been a steady 
business since 1943 and has the potential to be around 
providing good jobs for generations to come. Hopefully, Mr. 
Chairman, you and this distinguished committee can help us, and 
I appreciate your time and thank you for allowing me to speak 
for you today.
    Senator Thomas. Thank you very much. You mentioned the 
letter from the Governor. I have one here and I shall put this 
in the record.
    Mr. Burd. Thank you.
    Senator Thomas. As you indicate, these royalties are split 
between the feds and the State, so the State of course will 
have a reduction as well. But certainly we support that.
    Mr. McDermid.

 STATEMENT OF JOHN F. McDERMID, ON BEHALF OF AMERICAN NATURAL 
                      SODA ASH CORPORATION

    Mr. McDermid. Good afternoon, Mr. Chairman. My name is John 
McDermid and I am testifying today on behalf of the American 
Natural Soda Ash Corporation, ANSAC, a Webb-Pomerene 
association which is composed of four of the largest U.S. 
producers of soda ash.
    I am pleased to be able to be here today to underscore some 
of the international challenges facing the U.S. soda ash 
industry and the much-needed boost to exports that will result 
from reducing Federal soda ash royalties.
    In 1977 the U.S. soda ash industry has faced the dual 
challenges of rising costs and foreign trade barriers that now 
threaten its viability. When the BLM last raised royalties in 
1993, it based its increase on prospects for continued industry 
profitability and future growth at that time. A decade on, the 
conditions of perpetual expansion and profitability no longer 
exist. Rather, the U.S. industry finds itself facing stagnant 
growth, zero profitability, and mounting job losses. In short, 
this is an industry that is fighting for its very survival.
    The impact of soda ash on the American economy is far-
ranging. You will find no greater supporter for free trade than 
ANSAC. Soda ash exports contribute a surplus of nearly a half 
billion dollars to the overall trade deficit last year and U.S. 
soda ash exports of 4.5 million tons have nearly quadrupled 
since ANSAC's founding in 1983. About 40 percent of total 
production is exported.
    Nevertheless, exports have grown by only 4 percent since 
1997, compared to a 100 percent increase from 1992 to 1997. The 
industry's viability also impacts the 2,100 workers directly 
employed in well-paying jobs in the State of Wyoming alone, 
which is down 30 percent over 1997 levels. The industry also 
accounts for tens of thousands of jobs in other States with 
soda ash production and related industries like glass, 
detergent, and shipping.
    U.S. soda ash consumption has been flat since the early 
1980's, a factor that until recently was mitigated by U.S. 
export growth. Until 1997 jobs could marginally expand due to 
overseas growth and reasonably acceptable profits. Since then, 
however, as other industry experts are testifying today, energy 
and shipping costs and tax expenses have significantly risen. 
Rising costs are hurting U.S. exports. Without the natural 
advantage of trona, the rest of the world mostly produces soda 
ash through a synthetic process that is much more expensive 
than American methods. Despite high shipping and labor costs, 
the U.S. exports can still compete, though they must also face 
a myriad of tariff and non-tariff barriers erected to protect 
inefficient local producers.
    Adding insult to injury, the countries with the highest 
barriers are also the world's most promising markets. These 
include China, India, Brazil, and South Africa. In the case of 
China, U.S. soda ash has been at the losing end of a very 
ambitious 15-year campaign to develop a massive soda ash 
industry. The losses are simply staggering, an estimated one 
million tons in annual U.S. exports. Now the world's largest 
producer of soda ash, China's growth owes little to free market 
principles since over 90 percent of production is by state-
owned firms that benefit from a 5.5 percent import duty, a 
fixed exchange rate that amounts to a 15 to 40 percent subsidy, 
and subsidized bank lending, not to mention lower wages and few 
environmental standards.
    Without state support, China would be a lucrative U.S. 
market. Instead, U.S. market share has declined from 30 percent 
in 1989 to barely more than 1 percent last year as Chinese 
demand has exploded, and U.S. exports are expected to fall by 
another 30 percent this year. Subsidized Chinese soda ash is 
also edging out U.S. exports in key third markets. Chinese 
exports have doubled in the last 5 years, flooding markets in 
Japan, Korea, and Southeast Asia.
    Unlike foreign counterparts, the U.S. industry neither 
seeks or desires government protection to compete. However, 
industry challenges are reaching a breaking point. Exports are 
critical to maintain jobs and restarting ideal facilities like 
those in Wyoming's Green River region, and reducing Federal 
royalties will jump-start export competitiveness.
    The industry estimates that a reduction in Federal soda ash 
royalties to 2 percent would result in an estimated 5 to 10 
percent increase in U.S. exports or about 25 to $50 million. 
Combined with other restructuring initiatives, a royalty 
reduction will help see the U.S. industry through a difficult 
period and position it for sustained long-term export growth.
    I thank you for this opportunity to present ANSAC's views 
and welcome any questions you may have, Senator Thomas.
    [The prepared statement of Mr. McDermid follows:]

      Prepared Statement of John F. McDermid, on behalf of ANSAC 
          (American Natural Soda Ash Corporation), on S. 2317

    Good afternoon, Mister Chairman. My name is John McDermid, and I am 
testifying today on behalf of ANSAC, a Webb-Pomerene Association 
composed of four of the largest U.S. producers of soda ash. I am 
pleased to have the opportunity to underscore some of the challenges 
facing the U.S. soda ash industry and the beneficial impact in the 
global competitiveness of U.S. exports that will result from a 
reduction in federal soda ash royalties.

                         AN INDUSTRY CHALLENGED

    Since 1997, the U.S. soda ash industry has faced the dual challenge 
of a rising cost structure and foreign trade barriers that threaten its 
viability. Four years earlier in 1993, the Bureau of Land Management 
raised the federal soda ash royalty to the current 6%, justifying this 
increase on industry profitability and current and future growth 
prospects at the time. A decade later, it is clear that the conditions 
of seemingly perpetual expansion and profitability no longer exist. 
Rather, the U.S. industry finds itself facing stagnant growth 
prospects, zero profitability, and mounting job losses. In short, this 
is an industry that is fighting for its very survival.
    The far-ranging impact of soda ash manufacturing on the American 
economy cannot be overstated. Soda ash exports contributed $500 million 
dollars to the overall U.S. trade deficit in 2003. Furthermore, the 
viability of the U.S. soda ash industry impacts not only the 2,300 
workers directly employed in well-paying jobs in the state of Wyoming 
alone, which incidentally are down 30% over 1997 employment levels, but 
also the tens of thousands of workers employed in (1) other soda-ash 
producing states, (2) value-added industries such as glass 
manufacturing; (3) ancillary industries such as transportation, and (4) 
jobs dependent on the health of the regional economy.

         A NATURALLY-COMPETITIVE INDUSTRY BESET BY RISING COSTS

    Domestic soda ash consumption has remained essentially flat since 
the early 1980s, a factor that until recently has been largely 
mitigated by dramatic increases in U.S. exports during this same 
period. Thus, up until 1997, the industry was able to maintain capacity 
and employment and even expand due to growth in overseas markets and to 
reasonably acceptable profitability levels. In recent years, however, 
rising costs of production have significantly eroded industry 
profitability. Other industry colleagues will testify on this matter 
with greater authority, but let me point out three specific areas: (1) 
rising energy costs, whereas the price of natural gas, a major 
production cost, has skyrocketed up by 150% over the last four years; 
(2) exorbitant domestic rail and ocean freight costs, whereas it costs 
more to ship product to its final destination than to make it; and (3) 
an increasingly burdensome share of taxes, fees, and royalties paid, 
whereas such taxes now account for 14% of the cost of doing business.
    Rising costs have also had a debilitating effect on export 
competitiveness. Without the natural advantage of trona, the rest of 
the world mostly produces soda ash through a synthetic process that is 
more expensive than American methods. While U.S. soda ash literally has 
a natural edge over its foreign competition, it is disadvantaged by 
rising transportation costs and a substantially higher wage structure. 
While U.S. exports can still compete effectively in global markets 
under these conditions, they must also face a myriad of tariff and non-
tariff barriers erected by foreign governments to protect local 
suppliers. Such state intervention props up inefficient producers and 
raises costs for customers in the glass and detergent industries. 
Considering that soda ash comprises about 60% of the raw material cost 
of glass and 30% for detergents, this protection prices local value-
added production out of export markets; subjects local value-added 
manufacturing to import competition, and passes higher prices on to the 
general population. Adding insult to injury, the countries that have 
erected the highest bathers to U.S. soda ash are also among the 
largest, most-promising, and fastest growing markets in the world, 
e.g., China, India, Brazil, and even markets such as South Africa. 
Increasingly, as in the case of China, the levels of direct and 
indirect government support are rising to a point where imports are now 
edging out U.S. exports in key third markets such as Japan, Korea, and 
Southeast Asia where U.S. soda ash once dominated.
    A reduction in royalty payments will have a significant positive 
impact on U.S. exports given that U.S. soda ash enjoys natural 
competitive advantages and that even a 2% price premium can determine a 
sale. Furthermore, the consequent increase in U.S. exports would help 
mitigate any revenue impact while maintaining and even boosting 
employment in the soda ash-producing states of Wyoming, Colorado, and 
California as well as states like Oregon with jobs dependent on the 
soda ash industry.

         EXPORT GROWTH STALLED BY HIGH COSTS AND PROTECTIONISM

    Given that U.S. soda ash consumption of about 7 million MT has been 
essentially flat for more than 20 years, it is vital that exports grow 
in order to stabilize U.S. production and employment. You will find no 
greater supporters of global free trade than ANSAC and the U.S. soda 
ash industry. Since ANSAC's founding, U.S. soda ash exports have 
increased from a base of 1.3 million MT valued at $138 million in 1984 
to 4.5 million MT valued at $514 million in 2003. About 40% of U.S. 
production is exported, and soda ash contributed a surplus of more than 
half a billion dollars to the overall trade deficit of $536 billion 
last year. Remarkable as these numbers are, it should be noted that 
most of this growth took place prior to 1997. Exports have actually 
grown by only 4% since 1997, compared to a 100% increase from 1992 to 
1997.
    U.S. export growth coincided with dramatic advances in global trade 
liberalization. In many cases, however, tariffs remain substantial, 
especially in countries with the most promising soda ash markets. 
Furthermore, as tariffs fell, usually as mandated by negotiated trade 
agreements, governments have had to resort to ever-creative methods to 
protect inefficient domestic producers. While the global scene has many 
players, I will concentrate here on the illustrative-examples of China, 
Brazil, India, and South Africa. These countries are not only the most 
promising growth markets but prominent examples of extraordinary 
government protection. By outlining these examples, you will get a 
sense of the of the stiff challenges we face in growing exports and the 
imperative of reducing federal royalties to level the playing field.
    China--China's policies aimed at expanding domestic production and 
exports have resulted in the loss of over 1 million MT in annual U.S. 
exports. This, in turn, has led to hundreds of lost jobs in Wyoming 
alone and millions of dollars in lost tax revenues to that state. The 
U.S. soda ash industry has been at the losing end of an ambitious and 
targeted 15-year campaign, conducted at all levels of the Chinese 
government, to develop a massive domestic soda ash industry. The 
program has been an overwhelming success, transforming a fledgling 
industry into what is now the world's largest soda ash producing 
nation. Since 1989, Chinese soda ash production has expanded more than 
three-fold from 3 million to 11 million MT in 2003 and is expected to 
expand by another 6.3% percent this year. In the last five years alone, 
Chinese soda ash production has expanded by more than 50%, or 3.7 
million MT.
    China's impressive gains in soda ash production owe little to free 
market principles of innovation, efficiency, and profitability. Rather, 
since over 95% of China's soda ash is produced by state-owned 
enterprises, its rise as a soda-ash producing powerhouse is more a 
testament to the efficacy of government intervention. In addition to a 
5.5% import duty, Chinese soda ash is aided by China's fixed exchange 
rate, which artificially undervalues the Chinese yuan relative to the 
U.S. dollar by between 15 to 40 percent, according to economists. This 
undervaluation of China's currency amounts to a de facto subsidy that 
negatively impacts not only soda ash but a wide range of U.S. 
manufacturing sectors. This is hurting U.S. export competitiveness and 
contributing to the highest bilateral trade deficits in history. 
Furthermore, like other state-owned firms, local soda ash producers 
benefit from subsidized financing from state-run banks, direct support 
from local and provincial governments that are driven by the need to 
maintain local employment, and a vertical supply-chain network of 
state-run firms. As has been widely documented, China's largely state-
run banking system is notorious for issuing loans that do not have to 
be repaid, resulting in massive non-performing loan portfolios that are 
unsustainable and portend a potentially massive banking crisis with 
global repercussions. Chinese producers also benefit from a 
dramatically cheaper wage structure and much less rigorous 
environmental standards.
    Reducing the federal soda ash royalty would help restore a more 
level playing field in China. Were it not for extraordinary levels of 
government protection and state support for domestic producers, China 
would be one of the largest and most promising foreign markets for U.S. 
soda ash. Already the world's largest soda ash market, Chinese soda ash 
consumption expanded by 18% in 2002 and by another 8% last year. 
Conversely, the U.S. share of the Chinese market has declined 
dramatically. In 1989, U.S. soda ash captured a 30% share of the 
Chinese market; 15 years later, our share stands at barely more than 
1%. Though Chinese consumption has expanded from 4.0 million MT in 1989 
to 10.1 million MT last year, a staggering 143% increase, the actual 
quantity of U.S. soda ash exports has declined, from 317,000 MT in 1989 
to 280,000 MT last year. U.S. soda ash exports are expected to fall by 
another 30 to 40 percent this year, even though Chinese demand is 
expected to expand by another 2.2 million MT over the next four years, 
making China one of the few world markets expected to show solid growth 
in demand.
    While consumption growth is impressive, the Chinese industry plans 
to increase capacity at rates far outpacing projected demand. According 
to industry estimates, China is set to boost annual capacity by an 
additional 1.1 million MT this year and by 3.3 million MT (both over 
2003 levels) by 2007. (3.3 million MT equates to 55% of total U.S. soda 
ash consumption last year.) Given that demand is only expected to 
increase by 2 million MT, this excess soda ash will end up being 
exported at cut-rate prices to third-country markets in Northeast and 
Southeast Asia.
    East Asia--While penetrating the domestic Chinese market is 
difficult enough, U.S. exports are increasingly facing stiff 
competition from Chinese exports in key third-country markets. Chinese 
exports have grown dramatically, doubling in the last five years with 
rapid increases in production capacity. As of last year, about 11% of 
Chinese production was exported, yet this figure promises to grow with 
planned capacity additions over the next several years. Over 90% of 
Chinese exports are to key Asian markets such as Japan, Korea, and 
Southeast Asia (e.g., Indonesia, Thailand and the Philippines). The 
fall-off has been dramatic in what were once the largest markets for 
U.S. soda ash. In 1996, the top four global markets for U.S. soda ash 
were Indonesia, Korea, Japan, and Thailand, respectively. Combined, 
they accounted for $190M in exports, or 37% of total U.S. exports. By 
2003, this share had fallen to $106M, a drop of 44% over 1996 levels, 
and down to 21% of U.S. exports. Excluding Japan, which has stronger 
demand for higher-quality soda ash, the drop in exports to Indonesia 
(7th largest market in 2003), Korea (8th largest), and Thailand (13th 
largest) has been a staggering 54% over 1996 levels.
    I understand that several measures to counteract China's unfair 
advantages in these third markets were proposed in testimony before 
Senate Finance Committee International Trade Subcommittee hearings on 
the state of the U.S. soda ash industry on April 15. Among these 
proposals were the elimination or significant reduction of China de 
facto 15-40% subsidy arising from its from artificially-undervalued 
fixed exchange rate as well as steps to eliminate or significant reduce 
China's value-added tax (VAT) rebate for exported soda ash. Under 
current policy, China offers its producers a partial refund of VAT 
taxes paid on domestically-produced soda ash that is exported. The 
rebate portion stands at 76% of VAT paid, reduced from 87% last year 
for fiscal reasons. Reducing or completely eliminating the VAT rebate 
program for soda ash would have no impact on production for the vastly 
larger domestic market while allowing U.S. exports to compete on a more 
level playing field in Asian markets. While action on either of these 
items would be significant, steps in that direction are not likely 
imminent.
    The most potent and immediate boost to competitiveness would result 
from a reduction in federal soda ash royalties, which will allow U.S. 
exports to regain market share and better compete with subsidized 
Chinese exports in vital third markets.
    Brazil--Brazil was the 4th largest market for U.S. soda ash in 
2003, accounting for 312,000 MT of exports valued at $44 million. 
However, a series of obstacles threatens current and future U.S. market 
share. Already burdened by high production costs, U.S. soda ash faces a 
10% import duty when exporting to Brazil and other Southern Cone Common 
Market (Mercosur) countries like Argentina. China is also emerging as a 
competitive threat, now comprising 7% of Brazilian imports. However, 
the most significant obstacle is a discriminatory sales tax (ICMS) on 
imported soda ash designed to protect Brazil's sole producer. Since 
2001, the State of Rio de Janeiro has assessed a preferential ICMS rate 
of 2% on the formerly state-run firm Alcalis, compared to a 19% rate on 
all other (i.e., imported) soda ash, providing Alcalis a de facto 
subsidy of about $16-18 per metric ton. This discriminatory treatment 
flatly violates Brazil's national treatment obligations under the WTO 
(GATT 1994, Article III) which stipulate that internal taxes must be 
equally applied to domestically-produced and imported goods. In fact, 
the matter bears a strong resemblance to a WTO case recently filed by 
the U.S. government alleging discriminatory tax treatment of 
semiconductors by China. The U.S. industry estimates lost soda ash 
exports of up to $15 million due to this discrimination.
    The industry has actively engaged the U.S. government for 
assistance on the discriminatory ICMS tax since November 2001. ANSAC 
and its member companies have met with senior officials in the Office 
of the United States Trade Representative and Commerce Department, and 
letters encouraging the Administration to support the industry's 
efforts have been written to United States Trade Representative Robert 
Zoellick by the Wyoming Congressional Delegation and Senators Smith and 
Wyden from Oregon. The industry has also submitted a draft Section 301 
petition to the Office of the United States Trade Representative, 
although its intentions are to solve this matter via bilateral 
consultations and not through a trade war. Despite the extensive 
efforts of the industry and key Congressional supporters, progress 
remains elusive.
    Nevertheless, the U.S. industry firmly believes that reducing soda 
ash royalties would clearly help U.S. exports retain Brazilian market 
share in the face of state support of the local industry and gaining 
Chinese competition. Such a reduction may also be necessary to fend off 
increased competition from duty-free European Union exports resulting 
from a pending EU-Mercosur Free Trade Agreement.
    India--India is one of the world's fastest growing soda ash markets 
due to strong domestic demand for glass and detergents. However, there 
have been no U.S. soda ash exports to India since 1996. Like China and 
Brazil, India's domestic soda ash producers have enjoyed strong 
government support, which they have used to make India the world's 
fourth largest producing country--behind China, the United States, and 
Russia. As recently as 2002, an Indian court case brought by Indian 
soda ash producers threatened to shut U.S. exports completely out of 
the market. With the hard work of the U.S. government and strong 
support from the Wyoming Congressional Delegation, this outcome was 
averted. Nevertheless, India still maintains a 20% import duty which, 
when combined with other import taxes results in a net effective import 
duty of 39.2%. Still, were it not for exorbitant shipping costs ANSAC 
could re-enter the Indian market, and a reduction in soda ash royalties 
would accelerate this process.
    South Africa--As in China, a once leading U.S. share of the South 
African market has dwindled due to state support for favored producers. 
In 1990, South Africa was the third largest market for U.S. soda ash 
with over $27 million in exports. Last year, exports were just $8 
million, a decline of 70%, making South Africa the 21st largest market. 
This fall-off coincides with the 1991 formation of Botash, a 
politically-connected soda ash producer jointly owned by the Government 
of Botswana, the South African mining firms DeBeers and Anglo American, 
and a consortium of South African banks. Botash and its precursor 
entity SAB have benefited from extraordinary state support. In 1991, 
the South African Government temporarily raised the soda ash tariff to 
zero to 10% and permanently reinstated it in 1994. Nevertheless, SAB 
was forced into bankruptcy and reformed as Botash in 1995. While South 
Africa was obligated under the WTO to reduce its soda ash tariff from 
10% down to 5.5% by 2004, the tariff was maintained at 10% until 
January 2000 with Botash pressure. With tariff liberalization 
impending, Botash initiated a baseless legal action under South African 
competition laws, which threatens to shut ANSAC out of the market. 
ANSAC is nevertheless hopeful of a positive legal outcome, and a 
federal royalty reduction would help U.S. soda ash regain its market 
share in this emerging economy.

                               CONCLUSION

    The U.S. soda ash industry prides itself on being a naturally 
competitive industry in every aspect. Unlike our foreign counterparts, 
we neither seek nor desire government protection or assistance to 
compete in the domestic and world marketplace. I said before and want 
to re-emphasize that you will find no greater supporters of global free 
trade than ANSAC and the U.S. soda ash industry. However, the 
challenges of rising production and transportation costs combined with 
pervasive foreign government support for local producers have reached a 
point where the viability of the U.S. soda ash industry is being 
severely strained. Given flat domestic demand, export growth is 
critical to maintaining U.S. production capacity and employment and 
restarting idle facilities such as those in Wyoming's Green River 
region. The U.S. industry estimates that a reduction in federal soda 
ash royalties to a 2% rate would result in an estimated 5-10% increase 
in U.S. soda ash exports, or about $25 to $50 million based on 2003 
levels. Combined with other industry restructuring initiatives, a 
royalty reduction will help see the U.S. industry through a difficult 
period and position it for sustained and long-term export growth. I 
look forward to witnessing the continued positive role of soda ash on 
the economy of the nation, as well as its critical role in the state of 
Wyoming and regional economies in states such as Colorado, California, 
and Oregon. And once again, I thank you for this opportunity to present 
my views.

    Senator Thomas. Thank you very much.
    I might mention, as you know, we had a committee hearing in 
Rock Springs this spring. It was an official meeting of the 
Finance Committee, in which we were focusing largely on trade. 
But there were a number of things that had impact on the 
continuing success here, and of course this mineral royalty was 
one of them.
    My friend Mr. Loomis, the Mining Association in Wyoming.

STATEMENT OF MARION LOOMIS, EXECUTIVE DIRECTOR, WYOMING MINING 
                          ASSOCIATION

    Mr. Loomis. Thank you, Senator. It is a great pleasure to 
be here and we really appreciate you taking comments on S. 
2317. The Wyoming Mining Association is certainly in full 
support of the bill and we hope you would move it forward.
    The Mining Association represents bentonite, coal, trona, 
and uranium producers in Wyoming. As you know, the trona is 
processed into soda ash that is used in the United States and 
throughout the world. It may interest you and the rest of the 
committee to know that Wyoming does lead the Nation in the 
production of all four of those minerals, producing 30 percent 
of the Nation's coal, most of the mined uranium and bentonite, 
and certainly, as you have already mentioned, 85 percent of the 
Nation's soda ash.
    Trona mining and processing of it into soda ash constitutes 
one of the more important economic drivers for the State of 
Wyoming. Severance taxes, ad valorem production taxes, property 
taxes, Federal royalties, State royalties, sales tax, and even 
lease costs such as annual lease payments and bonus bids for 
new leases have helped create a surplus in Wyoming that is 
envied by many States across the Nation.
    However, the economic health of the industry is at an all-
time low. You have already heard those comments. I will try not 
to repeat what has already been said, but the price of soda ash 
has declined from around $77 in 1997 to $69 per ton today. The 
employment has dropped, as has been mentioned. One of our mine 
managers testified at that field hearing that you mentioned 
that as recently as 1997 the profitability of the industry was 
about 15 percent and it is near zero today. So we really do 
need help and your support.
    The industry is very important to the State of Wyoming. 
Taxes, Federal royalties, fees, all those things I mentioned, 
exceeded $48 million on 2003 production. The private royalties 
are another huge portion of it. But just the portion that comes 
back to the State of Wyoming in taxes and royalties is over 
$20,000 per miner. There are very few jobs or industries that 
create that kind of economic impact in any State.
    Maybe even more important than the taxes is the $200 
million payroll that is generated by the industry. That money 
buys houses, food, it pays for college expenses, and allows the 
2,100 miners and employees to improve their quality of life.
    We often hear about the wage gap between men and women, and 
the trona industry offers outstanding jobs to women. I am aware 
of a number of female chemical engineers, technicians, 
environmental specialists, and miners working in the trona 
industry. So these high tech jobs are the envy of almost any 
economic development agency. If you add all of the benefits, 
health care, employment taxes, these employees are over $87,000 
a year, certainly major jobs by any standards.
    And these jobs create additional jobs. Our Wyoming Business 
Council states that each primary job would generate another two 
full-time jobs. So that $200 million payroll, you can multiply 
it. They do not get paid probably on the order of the miner, 
but it would generate another $330 million. So you have a $500 
million impact just from the payroll.
    When you add the $600 to $700 million in sales and those 
companies turn around and they are paying those employees, of 
course, and the taxes, but they are also buying new equipment, 
they are buying the energy and fuel that has already been 
talked about. So it is very, very large, the economic impact.
    The legislation does not affect just Wyoming. Searles 
Valley Minerals operates three plants in San Bernadino County, 
California, and they have another 600 employees there. So it is 
also very important there.
    You have already heard about China. I will not go into that 
other than to say that China a year ago, 2 years ago, was a net 
importer of soda ash and now they are a major exporter. So that 
is a major turnaround and something we are going to have to 
address. China is going to continue to be a competitive reality 
and we are going to have to do everything we can in order to 
effectively compete against them. This is one area where we 
feel that the government has control and can take a position in 
support of the industry.
    So in summary, the trona industry is also creating a 
positive balance of payments. I think that was mentioned. In 
summary, we do create a positive balance of payments to address 
our trade deficit, employ over 2,000 people in the State of 
Wyoming, another 600 in California, earning some of the top 
salaries in the country. We generate millions of dollars in 
taxes and royalties to run State and local government. We are a 
major, major factor.
    So we hope you will help keep us going and keep these jobs 
in Wyoming. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Loomis follows:]

       Prepared Statement of Marion Loomis, Executive Director, 
                 Wyoming Mining Association, on S. 2317

    Mr. Chairman, members of the Subcommittee on Public Lands and 
Forest, ladies and gentlemen. My name is Marion Loomis and I am the 
Executive Director of the Wyoming Mining Association. The Wyoming 
Mining Association (WMA) thanks you for taking comments on S. 2317--
Limiting the Royalty on Soda Ash and is in full support of the Senate 
File.
    WMA represents bentonite, coal, trona and uranium producers in 
Wyoming. As you know trona is processed into soda ash for use in the 
United States and throughout the world.
    It may interest the committee to know that Wyoming leads the nation 
in production of all four of the above minerals and accounts for 30% of 
the nation's coal, virtually all of the mined uranium, most of the 
bentonite produced in the United States and, most importantly to you 
today, 90% of the nation's soda ash.
    Trona mining and the processing of it into soda ash constitutes one 
of the most important economic drivers for the state of Wyoming. 
Severance taxes, ad valorem production taxes, property taxes, federal 
royalties, state royalties, sales taxes and even lease costs such as 
annual lease payments and bonus bids for new leases have helped create 
a surplus for Wyoming that is envied by many states across the nation.
    However, the economic health of the soda ash industry is at an all 
time low. The price of soda ash has dropped from $77 per ton in 1997 to 
$69 per ton today. Employment has dropped from 3,000 in 1997 to 2,110 
today. One of our mine managers testified at a field hearing in April 
of this year that the profitability of the industry has declined from 
15% as recently as 1997 to near zero today. The industry needs help to 
continue to provide vital economic impact for Wyoming.
    To give you some idea of what this industry means to Wyoming, I 
offer the following statistics. There are 2,110 miners in Wyoming 
producing over 15 million tons of trona per year. Taxes, federal 
royalties and fees from the trona industry exceeded $48 million on 2003 
production and Wyoming's share of that is over $42 million. That means 
that trona production generates almost $20,000 in taxes and royalties 
for use by government in Wyoming for every miner employed.
    Below is a breakdown of the taxes and royalties generated by the 
trona industry on 2003 production. As stated previously, Wyoming's 
share of these tax and royalty dollars exceeds $42 million.

              TRONA--TAXES AND ROYALTIES ON 2003 PRODUCTION
------------------------------------------------------------------------

------------------------------------------------------------------------
Severance Tax...........................................      $7,800,000
Ad Valorem Tax on Production............................      14,300,000
Ad Valorem Tax on Real and Pers. Prop...................       5,300,000
Federal Mineral Royalty (total paid)....................      10,900,000
Bonus Bids (total paid).................................         500,000
State Royalties.........................................       5,300,000
Sales Tax...............................................       4,000,000
                                                         ---------------
TOTAL TAXES AND ROYALTIES...............................    $48,1000,000
                                                         ===============
No. of Employees........................................           2,110
Payroll Including Benefits..............................    $201,000,000
Production (Tons of Trona)..............................      15,100,891
------------------------------------------------------------------------

    Maybe even more important than the taxes generated is the $200 
million payroll generated by the trona industry. That money buys houses 
and food, pays for college expenses, and allows over 2,000 employees to 
improve their quality of life.
    We often hear of the wage gap between men and women, but the trona 
industry offers outstanding jobs to women. There are female chemical 
engineers, technicians, environmental specialist and women miners 
working in the trona industry. These high tech jobs are the envy of any 
economic development organization. When all of the benefits such as 
health care and employment taxes are added in, these jobs pay over 
$87,000 per year, and women work right alongside of the men earning the 
same salary for the same job.
    These jobs create additional jobs in Wyoming. Our Wyoming Business 
Council states that each primary job generates another 2 full time 
jobs. The Business Council further states that a $200 million payroll 
will generate another $334 million in payroll. Add to that the purchase 
of goods, equipment, fuel and services from the sale of $600-$700 
million worth of soda ash and the economic impact of trona mining to 
Wyoming and the people living in Southwest Wyoming is huge.
    This legislation does not just impact Wyoming. Searles Valley 
Minerals (``SVM'') operates three plants in Searles Valley in northern 
San Bernardino County, California that produce soda ash, sodium 
sulfate, boron products and solar salt. SVM is the only major employer 
in Searles Valley and is only one of two major employers in the area, 
the other being the U.S. Navy at its China Lake facility. The company 
has about 603 current employees plus hundreds of contractors and 
service providers. With direct and indirect jobs in the immediate area 
of about 1,500 from SVM in an area with an overall population of about 
30,000, SVM is an important part of the area's economy.
    It is also important to recognize the positive impact soda ash has 
for the balance of trade to this country. At a time when our imports 
far exceed our exports, we need to do everything we can to sell more 
U.S. produced goods. Soda ash represents over 80% of the goods produced 
in Wyoming that are exported.
    Mr. Chairman, the challenges to sustaining our global leadership 
are increasing.
    Export growth means job growth for Southwest Wyoming. And, our 
industry is committed to increasing its share of the world's growing 
demand for soda ash; indeed we must, if we are to remain viable. Since 
the early 1980's domestic demand for soda ash has remained constant at 
approximately 7 million tons per year, and there remains no foreseeable 
growth in critical U.S. markets for flat glass or glass packaging that 
will lead to future growth. Thus the prospects for growth in our 
industry hinge on growing our markets offshore.
    To put in perspective the challenge before us, in the fifteen years 
between 1982 and 1997, this industry enjoyed a steady and significant 
growth in exports. Just in the five years between 1992 and 1997, export 
volume grew 100%. But in the years since 1997, export growth has been 
marginal. Exports in 2003 were only 4% above their 1997 levels. We are 
not satisfied with the current rate of export growth, nor should we be. 
The developing economies of China, Southeast Asia, Latin America and 
Africa are growing, and so too should demand for a U.S.-made product 
from a vast mineral reserve natural and unique to this state.
    However, Mr. Chairman, as you well know, we are not alone in 
competing for these new markets. As recently as 1989, China imported 
over a 1 million ton per year of soda ash. By next year, we expect them 
to be a 1.5 million ton net exporter. Moreover, China has now become 
the world's largest producer of soda ash, though hardly it's most 
efficient. A growing number of inefficient, state owned and state 
supported Chinese producers have added soda ash to their growing list 
of manufacturing exports and are flooding international markets with 
low cost material. This is in spite of the fact that their own 
synthetic production facilities are energy intensive and their 
environmental and worker safety standards are dismal by our standards.
    But like it or not, China is a competitive reality, and U.S. soda 
ash producers have to do everything they can to reduce their costs in 
order to effectively compete. They remain the most efficient suppliers 
of soda ash in the world. They continually look at their cost 
structure, both the costs they control, and those controlled by others, 
in order to sustain this leadership in the years ahead. If they are to 
maintain this industry's global leadership role they must partner with 
federal, state and local governments, and the critical energy and 
transportation suppliers in new cost sensitive relationships that 
recognize their mutual dependence on one another.
    If the industry cannot turn their profitability around, all of this 
economic impact will be at peril. They really do need your help. 
Reducing the federal royalty for a set period of time will have a 
tremendous impact on the cost of producing a ton of soda ash. The 
industry can and has taken aggressive steps to reduce fixed costs, 
improve operational efficiencies and even curtail excess capacity. But 
the industry cannot do anything about the government imposed costs. 
Since that is one of the major costs, we are asking you for help to 
make those reductions.
    In summary, the trona industry is creating a positive balance of 
payments to address our trade deficit, employs over 2,000 highly 
skilled men and women in Wyoming and another 600 in California earning 
top salaries, and generates millions of dollars per year in taxes and 
royalties to run state and local governments. We hope you will help 
keep these jobs and economic impact in Wyoming, California and the 
United States.
    We thank you for the opportunity to comment on this legislation and 
hope that you will be successful in passing it through the full Senate.
    Once again thank you.

    Senator Thomas. Thank you, and thank you, gentlemen.
    It is interesting that you have mentioned the economic 
impact, not only directly in jobs and salaries, but taxes and 
the whole impact. Actually, the Interior Department has 
submitted, they would--I never thought I would say it--not very 
much. But they would lose $5 million a year. In the scheme of 
things around here, $5 million a year is not very much compared 
to what it does in terms of the economy.
    [The statement of the Department of the Interior follows:]
    Prepared Statement of the Department of the Interior on S. 2317
    The Department of the Interior submits the following statement for 
the hearing record on S. 2317, a bill to reduce the royalty on soda ash 
production from Federal lands.
    S. 2317 would establish a two percent royalty rate to the United 
States for sodium minerals mined from Federal lands, (a reduction from 
six or eight percent) on all current and future sodium leases, for a 
five-year period. In Section 102(9) of the Federal Land Policy and 
Management Act (FLPMA), Congress declared that the policy of the United 
States is to obtain fair market value for the use of the public lands, 
including royalties from sodium production, unless otherwise provided 
by statute. The Administration believes a two percent royalty is well 
below fair market value for the resource, and therefore cannot support 
the bill.

                          SODA ASH BACKGROUND

    Soda ash is one of several products derived from sodium minerals 
mined on public lands and is used in many common products, including 
glass, detergents, and baking soda. The mineral trona is a naturally 
occurring mixture of sodium carbonate, sodium bicarbonate, and water. 
Soda ash, or ``sodium carbonate,'' is refined from trona mined at 
depths between 800 and 1600 feet below the surface.
    The chemical soda ash, is either natural or synthetic. Soda ash can 
be extracted from natural trona deposits that are mined, or it can be 
manufactured synthetically. Synthetic soda ash production began in this 
country in the 1880's and increased as the demand for soda ash 
increased. Although soda ash represented only two percent of the total 
estimated $38 billion U.S. non-fuel mineral industry in 2003, its use 
in many diversified products contributes substantially to the gross 
domestic product of the United States, and the industry is a 
cornerstone of Wyoming's economy.
    In the early 1950s, the modern natural soda ash industry began in 
the Green River Basin of Wyoming, home of the world's largest natural 
deposit of trona. Since then, five soda ash processing facilities have 
been constructed in Southwest Wyoming. Natural soda ash production from 
Wyoming, in an open market, is more competitive than synthetic soda ash 
produced at plants elsewhere in this country and the world.

                      SODA ASH--CURRENT PRODUCTION

    Currently, the U.S. soda ash industry is made up of four companies 
in Wyoming operating four plants (a fifth plant is idle); one company 
in California with one plant; and one plant in Colorado owned by one of 
the Wyoming producers. The five U.S. producers have a combined annual 
designed production capacity of 14.5 million tons (16 million short 
tons). The total estimated value of domestic soda ash produced in 2003 
was $750 million.
    Ninety percent of the domestic soda ash production occurs in the 
Green River Basin of Wyoming. Of this, about 44 percent of the 
production is from Federal lands. The other production in the Basin is 
on nearby or adjacent State and private lands, which are often in a 
checkerboard pattern with the Federal lands. Nationwide, the Bureau of 
Land Management (BLM) estimates that 48 percent of the soda ash 
production is from Federal lands.

                                S. 2317

    S. 2317 proposes a statutory royalty rate on sodium of two percent. 
As mentioned, the Department of the Interior believes a two percent 
royalty rate is below fair market value, which was estimated to be 
above the current six percent rate. The BLM's policy, as declared by 
Congress in FLPMA, has been to obtain fair market value for sodium 
resources. To implement this policy, in 1995, the BLM completed a 
market study to examine fair market value in the sodium industry in 
Wyoming. The study reviewed many comparable state and private leases 
and found that fair market value in Wyoming appeared to be somewhat 
higher than the five percent being charged by BLM at that time. As a 
result of the 1995 study, in February 1996, the BLM determined that the 
royalty for all then-existing leases would be increased from five to 
six percent at the lease renewal date. The BLM also determined, based 
on the study, that the royalty rate for all new leases entered into 
during or after 1996 would be eight percent. In the Green River Basin, 
the current sodium royalty rate on most private land is eight percent; 
five percent on State lands.
    The bill also would result in significant revenue loss to both the 
Federal government and the State of Wyoming. In 2001, (the most current 
year for which publicly available statistics have been published by the 
Minerals Management Service), $11.1 million in Federal royalties were 
collected from soda ash production on public lands in Wyoming. Of that 
amount, pursuant to the Mineral Leasing Act, 50 percent, or $5.5 
million, was distributed to the State of Wyoming, 40 percent went to 
the Reclamation Fund (a fund created by statute in 1901 for the 
construction and maintenance of irrigation works and reclamation 
projects) and 10 percent was distributed in miscellaneous receipts to 
the U.S. Treasury. The bill's reduction of the royalty from six to two 
percent for soda ash production would mean that total royalties would 
be reduced from approximately $11.1 million to approximately $3.7 
million--a reduction of $7.4 million in one year. Under the bill's 
reduced royalty rate, the State of Wyoming's share of the Federal 
royalties would be reduced to $1.8 million, as compared to $5.5 million 
in 2001. The United States' share also would be reduced by an equal 
amount.
    It should be noted that most of the soda ash mines in the Green 
River Basin of Wyoming have both Federal and non-Federal ownership of 
the mineral rights and are within the Union Pacific Railroad land grant 
corridor which creates a checkerboard pattern of private and Federal 
mineral ownership, where a section (1 square mile) of federal ownership 
is surrounded on four sides by private or state ownership. Many of the 
lease agreements for the mining of soda ash from the privately-held 
mineral rights specify that the mining company must mine as much soda 
ash from private mineral rights as mined from adjoining Federal or 
State mineral rights. These agreements contain financial penalties that 
discourage mining more than fifty percent from non-private portions of 
the mines. Therefore, reductions in the Federal royalty rate will not 
provide a directly proportional incentive to produce more soda ash from 
Federal leases.

                               CONCLUSION

    The Administration cannot support S. 2317 because the bill reduces 
government receipts and reduces the fee below fair market value.
    The Department of the Interior appreciates the opportunity to 
submit a statement on S. 2317 and would welcome further opportunities 
to discuss the bill and related issues with the Committee. The 
Department would be pleased to answer any questions the Committee may 
have for the record.

    Senator Thomas. I do not think most people ever heard of 
soda ash or trona. Any of you, tell us some of the retail 
products that come from soda ash?
    Mr. McDermid. Mr. Chairman, soda ash is a basic chemical 
commodity. Yes, you are absolutely correct, most people do not 
know it. In fact, I find that most people in Wyoming refer to 
it as ``trona,'' in Washington it is ``soda ash.'' But roughly 
60 percent--I think this is the most staggering of the numbers, 
in answer to your question. Roughly 60 percent of the cost of 
making glass is soda ash.
    Now, with the international hat on that I have, that means 
that in the world, if you are purchasing high-quality, well-
priced soda ash, you are going to be competitive in the glass 
industry. So in that sense, glass industries around the world 
are generally speaking with our allies trying to seek trade 
liberalization.
    Another major use for soda ash is detergents, and there are 
some ancillary other uses. But those are the two principal 
uses.
    Senator Craig. Baking soda.
    Mr. McDermid. Baking soda, yes. I am sorry. That would be 
another major use.
    Senator Craig. It is, frankly, one of the few things in 
Wyoming that goes ready to go on the grocery shelf when it 
leaves our State, and so on.
    Well, I appreciate very much your being here. Again, I 
think we are talking here about the loss of jobs versus a 
relatively small loss of payments to the State and the feds. We 
are talking about our largest export into foreign trade in 
Wyoming. It does help reduce the deficit. We are talking about 
potential loss of an industry that is one of our major ones.
    So we appreciate your being here and we look forward to 
continuing to move forward with this bill and the other bills 
that are all here.
    There being nothing further, the committee is adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                            University of Kentucky,
                                Kentucky Geological Survey,
                                    Lexington, KY, August 30, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: Please find attached responses to the questions 
that were submitted for the record pursuant to S. 2353, the National 
Geologic Mapping Act, before the Subcommittee on Public Lands and 
Forests of the Senate Committee on Energy and Natural Resources on July 
14, 2004. Robert Marvinney, President of the Association of American 
State Geologists, and James C. Cobb, State Geologist of Kentucky, 
worked together on these responses.
    It is our pleasure to participate in this important business for 
the Nation and we would be happy to provide any further assistance or 
input if needed.
            Very sincerely yours,
                                   James C. Cobb,
                                           State Geologist, and
                                           Director, Kentucky 
                                               Geological Survey.
                                   Robert G. Marvinney,
                                           President, AASG, and
                                           State Geologist, Maine 
                                               Geological Survey.
[Enclosure.]

                     Questions From Senator Bunning

    Question 1. I would like to congratulate the Kentucky geological 
survey and our state geologist, Dr. Jim Cobb, for making Kentucky the 
first state in the nation to have complete digital geologic map 
coverage. As we have seen in Kentucky, digitizing maps has become a 
very important and valuable aspect of this program. Does the current 
legislation adequately reflect the priority and funding needed to 
update older maps into newer, online databases?
    Answer. The current legislation allows for updates of older maps 
and conversion of existing maps to digital databases for online access. 
One of the outstanding aspects of the original legislation was the 
foresight to emphasize digital geologic maps for efficient and 
paperless storage, updating, and communication of information to map 
users. Most states have used this part of the legislation, and a 
national catalog of digital geologic maps has been prepared by the 
USGS. Additions to this catalog are made every year.
    Question 2. The research presented today shows that government 
dollars spent on this program have been returned 20-fold in Kentucky. 
Do you believe further investments will see this magnitude of public 
benefits? Can other states that are in the earlier stages of this 
program expect to experience similar benefits?
    Answer. I believe all states will experience a high return on 
investment from this program, and even in Kentucky, continued updating 
and new mapping will yield significant returns on the investment. 
States differ in their geology, natural resources, water availability, 
and hazards; therefore, the actual return to each state from this 
program will be different, but in all cases it will be very high and 
will continue to pay dividends long into the future.
    Questiion 3. Despite the successes of this program, nearly \3/4\ of 
the country is still not adequately mapped. But it is encouraging to 
see that the number of state surveys participating in this program has 
increased during the last decade, from 34 to 47. How can we help ensure 
that all states take full advantage of this program?
    Answer. Lack of federal funding is the principal reason that 
progress is not being made faster toward the goal of mapping the U.S. 
geologically. The state geological surveys can match approximately 
twice the federal dollars currently appropriated under the Act. For 
2004, the authorization level will be at $60 M but the appropriation 
only $26.5 M. The STATEMAP component of the Act is only $7 M, which 
leaves approximately $6 M in available matching state funding unused. A 
total of 47 states participating out of 50 is a very high percentage. 
For some states, funding for geological surveys is small; therefore, 
because of state funding priorities it may not be possible to have all 
50 states involved every year.
                                 ______
                                 
                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                  Washington, DC, October 28, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: Enclosed are responses prepared by the Office 
of Insular Affairs to questions submitted following the July 14, 2004, 
hearing on H.R. 1189, ``To increase the waiver requirements for certain 
local matching requirements for grants provided to American Samoa, 
Guam, the Virgin islands, or the Commonwealth of the Northern Mariana 
Islands.''
    Thank you for the opportunity to provide this material.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                      Questions From Senator Craig

         H.R. 1189 WAIVER REQUIREMENT INCREASE FOR TERRITORIES

    Question 1. Approximately, what is the amount of annual grants 
received by the U.S. Territories from the Federal government?
    Answer. According to the latest available statistics from the U.S. 
Census Bureau Consolidated Federal Funds Report for fiscal year 2002, 
the territories received the following grant amounts:


------------------------------------------------------------------------

------------------------------------------------------------------------
American Samoa.......................................        $93,400,000
Guam.................................................        250,600,000
Northern Mariana Islands.............................         66,100,000
Virgin Islands.......................................        266,400,000
                                                      ------------------
    Total............................................       $676,500,000
------------------------------------------------------------------------

    Question 1(a). How many of these grants are distributed by the 
Department of the Interior?
    Answer. The U.S. Census Bureau Consolidated Federal Funds Report 
for fiscal year 2002 shows that the territories received the following 
grant amounts from the Department of the Interior:


------------------------------------------------------------------------

------------------------------------------------------------------------
American Samoa.......................................        $36,700,000
Guam.................................................         61,900,000
Northern Mariana Islands.............................         21,600,000
Virgin Islands.......................................         79,900,000
                                                      ------------------
    Total............................................       $200,100,000
------------------------------------------------------------------------

    Question 1(b). How many of the grants are distributed by Interior's 
Insular Affairs division.
    Answer. Approximately $79 million.
    Question 1(c). how many of these grants are from other Federal 
agencies?
    Answer. Approximately $476 million.

                      Questions From Senator Akaka

                               H.R. 1189

    Question 1. In 1980, in an effort to relieve the financial and 
administrative burden on the territorial governments, Congress enacted 
legislation requiring Federal agencies to waive any local matching 
requirement under $200,000. H.R. 1189 would increase this waiver to 
$500,000.
    Generally, what is the current financial position of the 
territorial governments?
    Answer. Fiscally, each of the territories has been struggling for 
some time. American Samoa is the bright spot, due to the windfall of 
tobacco settlement payments. American Samoa was able to pay off much of 
its traditional long-term debt by incurring debt that is serviced by 
the tobacco payments. Currently, American Samoa woes approximately 
$28.5 million. Tobacco payments service $17 million of this debt. The 
Virgin Islands carries $1 billion in debt, with annual debt service of 
$81 million. The Internal Revenue Matching Fund provides $40 million of 
the $81 million in annual debt service. Guam carries general and 
limited obligation debt of $400 million. The CNMI owes approximately 
$250 million, nearly all of which is serviced by dedicated streams of 
income, including the Covenant funds.
    Question 2. Generally, what is the status of territorial efforts to 
provide essential infrastructure such as water, sewer, solid waste 
disposal?
    Answer. Generally, the territories are trying to bring their water, 
sewer and solid waste disposal infrastructure into compliance with 
Federal regulations. They are utilizing the limited funds provided by 
the Office of Insular Affairs and local funds to address their most 
critical priorities.
    For example, in the Virgin islands, EPA consent decrees, related to 
wastewater infrastructure, mandated improvements necessary to comply 
with Federal environmental regulations. In 2004, the Virgin Islands is 
utilizing $5.0 million of the infrastructure, funds provided by the 
Office of Insular Affairs as part of a multi-year financing plan to 
finance the design, construction and operations of the wastewater 
treatment plants on St. Croix and St. Thomas.
    In Guam, one of the most critical issues is the closure of Ordot 
landfill. In fiscal year 2004, Guam requested that $3.259 million in 
grant fund balances provided by the Office of Insular Affairs by 
utilized for Ordot closure, and for plans, specifications and estimates 
for a new landfill.
    American Samoa has a five-year master plan for infrastructure and 
generally allocates funding based on the master plan in the areas of 
water, sewer and solid waste disposal. In 2004, American Samoa received 
$.475 million for water infrastructure, $1.9 million for sewer 
infrastructure and $.475 million for solid waste infrastructure in 
grant funds from the Office of Insular Affairs.
    In the CNMI, in fiscal year 2004, the most critical projects are 
(1) 24 hour water service for all residents of Saipan, (2) closing the 
Puerto Rico dump and (3) designing and constructing a sewer treatment 
plant in Tinian. During fiscal year 2004, the Office of Insular Affairs 
provided grants for $7.2 million to address water service needs in 
Saipan, $1.0 million for Puerto Rico dump closure, and $1.3 million for 
Tinian sewer infrastructure.
    Question 3. Do you have an estimate of how much H.R. 1189 would 
save the territorial government each year?
    Answer. We do not have an estimate of savings. Each individual 
territory would be the best source for such information. With precise 
knowledge of the grants it receives and the matching amounts it 
contributes, a territory would be in the best position to determine 
projected savings.
    Question 4. Are there issues that have arisen over the past 20 
years in the implementation of this waiver policy that the Committee 
should consider fixing if we were to recommend enactment of this bill?
    Answer. The matching waiver provision has received differing 
interpretations from various agencies as to whether or not the waiver 
is applicable to a particular program, and the amounts to be waived. 
H.R. 1189 would clarify the ambiguities in the existing statute. The 
views of concerned agencies with respect to these and other waiver 
issues, including their support for or opposition to a statutory 
increase in the waiver amount, may be presented in forthcoming reports 
on H.R. 1189.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                  State of Wyoming,
                                    Office of the Governor,
                                        Cheyenne, WY, July 9, 2004.
Hon. Larry Craig,
Chairman, Public Lands and Forests Subcommittee, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: It is my understanding the Senate Energy and 
Natural Resources Committee will soon begin deliberations on The Soda 
Ash Royalty Reduction Act of 2004. I encourage you to view this 
legislation favorably.
    Soda ash is of critical importance to many industrial and 
commercial uses in the United States and around the world. While 
primarily used in glass making (approximately 55% of U.S. consumption), 
soda ash is also used in the chemical industry (23% of U.S. 
consumption), the making of soaps and detergents, pulp and paper 
manufacturing and water treatment. Numerous other smaller, but 
nonetheless vital uses of this mineral consume the balance of 
production in the United States.
    For over 60 years, trona, the ore from which soda ash is 
manufactured, has been mined from the largest deposit of trona in the 
world, located in southwestern Wyoming. The industry has enjoyed a 
cooperative and mutually beneficial relationship with Wyoming. However, 
the industry has also experienced difficult domestic market conditions, 
and has relied on export sales for most of its business growth during 
the past 20 years. The competitive challenges faced by the industry are 
exacerbated by transportation, taxes and other costs that are not 
required of many of its foreign competitors.
    This industry, which leads the world in production of a mineral so 
essential to so many of our fundamental industries, is now under 
economic attack from China, where soda ash can be produced cheaply and 
without regards to the strict environmental oversight which governs 
extractive industries in the United States.
    Despite great strides in mining and manufacturing efficiencies, 
despite cutting its workforce, and despite the best management 
practices it can make, the industry in the United States is losing 
ground to its overseas competitors. The United States soda ash industry 
needs and deserves reasonable and appropriate steps from its government 
to help it survive a challenge from foreign shores. I believe that the 
Soda Ash Royalty Reduction Act of 2004 is such a step in the right 
direction.
    As Governor of Wyoming, I would urge support Senator Thomas's bill 
to reduce the tax burden on this critical industry. This bill is a 
measured, reasonable and timely step that will preserve good jobs for 
our citizens, and help this critical industry compete in a highly 
competitive global market. The negative impacts to the citizens of the 
State of Wyoming, let alone the impacts to the people and industry of 
the United States, promise to be significant if this industry fails to 
remain competitive in the international markets that represent nearly 
all of the future growth potential for soda ash.
    Thank you for your consideration in this matter.
            Sincerely,
                                          Dave Freudenthal,
                                                          Governor.
                                 ______
                                 
                       Territory of American Samoa,
                                    Office of the Governor,
                                      Pago Pago, AS, July 14, 2004.
Hon. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.

Subject: H.R. 1189

    Dear Senator Wyden: Thank you for the invitation to submit a 
statement on the above referenced legislation. I appreciate the 
opportunity to take part in this important discussion.
    It has been twenty years since the waiver requirement was written. 
In those twenty years American Samoa has made great strides in almost 
all areas of government as well as social and economic development. 
Recently, those strides have become slowed and labored, due to the 
harsh economic impacts of national unemployment, decreased revenues and 
a dearth of available capital for economic development.
    The increase in the waiver requirement, as proposed by this 
important legislation will go a long way toward mitigating the negative 
effects of the problems plaguing American Samoa. In turn, those moneys 
appropriated to match federal funds currently may be put to greater use 
in supporting health care, education and economic development.
    Economic development dollars are vital in this Territory. Almost 
the whole of American Samoa's private sector consists of two tuna fish 
canning plants. A significant portion of American Samoa's economy is 
completely dependent upon these canneries for survival. While the 
Territory has done well to target other businesses which would help to 
trump up our private sector, the private sector's independence from the 
tuna canning industry is still far off on the horizon. The moneys that 
would be made available through this legislation would help American 
Samoa tremendously in this and other economic development initiatives.
    American Samoa also suffers from one of the highest rates of 
diabetes, cancer and heart disease of any other group in the United 
States. This has put an incredible amount of pressure on the 
Territory's already fragile health care system. The funds that would be 
available as a result of this bill would aid American Samoa in 
strengthening her health care system with the appropriate equipment and 
adequate staff.
    These are but two examples of how much this bill would help the 
government of American Samoa. The moneys that will be made available to 
the Territory pursuant to this bill will give American Samoa a much 
needed shot in the arm to once again make sure and strong strides for 
its people and island home.
    I wholeheartedly support H.R. 1189, and it is my sincere hope that 
with your help and the assistance of the Subcommittee, this legislation 
will be passed as soon as possible.
    Again, I thank you for the opportunity to communicate my position 
on this important legislation. Should you have any questions regarding 
this matter, please do not hesitate to contact me.
            Sincerely,
                                     Togiola T.A. Tulafono,
                                        Governor of American Samoa.
                                 ______
                                 
                         Taxpayers for Common $ense Action,
                                     Washington, DC, July 14, 2004.
Hon. Pete Domenici,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
Hon. Jeff Bingaman,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.

Re: S. 2317, a bill to reduce the royalty rate on soda ash production

    Dear Senators Domenici and Bingaman: Taxpayers for Common Sense 
Action (TCS Action), a nonpartisan, budget watchdog group, understands 
that you are holding a hearing today regarding S. 2317, which would 
reduce the royalty rate paid on soda ash production on federal lands 
for a period of 5 years. Given mounting federal deficits, TCS Action is 
opposed to this legislation.
    Minerals on federal lands are public assets that should be managed 
in a way that provides a fair return to taxpayers. Trona is a mineral 
that is processed into soda ash, which is used in products like glass, 
detergents, cleaning compounds, and paper. Royalty rates on soda ash 
production were raised in 1995 from 5 percent to 6 for existing leases 
at the time of renewal and 8 percent for new leases to keep pace with 
fair market value. Royalty payments are split between the federal 
government and state where soda ash is produced.
    S. 2317 would result in huge revenue losses to both the federal 
treasury and Wyoming. Ninety percent of the nation's soda ash 
production is found in Wyoming. The United States produces 30 percent 
of the soda ash in the world. Slashing the royalty rate from 6 or 8 
percent down to 2 percent would put the royalty rate far below fair 
market value, currently estimated to be above 6 percent. In 2001, the 
federal government received $11.1 million in royalty payments, with 
half this money going to Wyoming.
    Again, TCS Action is opposed to S. 2317, which would reduce the 
royalty rate paid on soda ash production to below fair market value. At 
a time of record deficits, we can ill afford to lose precious federal 
and state revenue by giving royalty reductions to profitable companies.
            Sincerely,
                                              Aileen Roder,
                                                  Program Director.

</pre></body></html>
